<html>
<title> - LEGISLATING TO CONNECT AMERICA: IMPROVING THE NATION'S BROADBAND MAPS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                 LEGISLATING TO CONNECT AMERICA: IMPROVING 
                           THE NATION'S BROADBAND MAPS

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 11, 2019

                               __________

                           Serial No. 116-60
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                   govinfo.gov/committee/house-energy
                        energycommerce.house.gov
                        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-987 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                     FRANK PALLONE, Jr., New Jersey
                                 Chairman
BOBBY L. RUSH, Illinois              GREG WALDEN, Oregon
ANNA G. ESHOO, California              Ranking Member
ELIOT L. ENGEL, New York             FRED UPTON, Michigan
DIANA DeGETTE, Colorado              JOHN SHIMKUS, Illinois
MIKE DOYLE, Pennsylvania             MICHAEL C. BURGESS, Texas
JAN SCHAKOWSKY, Illinois             STEVE SCALISE, Louisiana
G. K. BUTTERFIELD, North Carolina    ROBERT E. LATTA, Ohio
DORIS O. MATSUI, California          CATHY McMORRIS RODGERS, Washington
KATHY CASTOR, Florida                BRETT GUTHRIE, Kentucky
JOHN P. SARBANES, Maryland           PETE OLSON, Texas
JERRY McNERNEY, California           DAVID B. McKINLEY, West Virginia
PETER WELCH, Vermont                 ADAM KINZINGER, Illinois
BEN RAY LUJAN, New Mexico            H. MORGAN GRIFFITH, Virginia
PAUL TONKO, New York                 GUS M. BILIRAKIS, Florida
YVETTE D. CLARKE, New York, Vice     BILL JOHNSON, Ohio
    Chair                            BILLY LONG, Missouri
DAVID LOEBSACK, Iowa                 LARRY BUCSHON, Indiana
KURT SCHRADER, Oregon                BILL FLORES, Texas
JOSEPH P. KENNEDY III,               SUSAN W. BROOKS, Indiana
    Massachusetts                    MARKWAYNE MULLIN, Oklahoma
TONY CARDENAS, California            RICHARD HUDSON, North Carolina
RAUL RUIZ, California                TIM WALBERG, Michigan
SCOTT H. PETERS, California          EARL L. ``BUDDY'' CARTER, Georgia
DEBBIE DINGELL, Michigan             JEFF DUNCAN, South Carolina
MARC A. VEASEY, Texas                GREG GIANFORTE, Montana
ANN M. KUSTER, New Hampshire
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
LISA BLUNT ROCHESTER, Delaware
DARREN SOTO, Florida
TOM O'HALLERAN, Arizona
                                 ------                                

                           Professional Staff

                   JEFFREY C. CARROLL, Staff Director
                TIFFANY GUARASCIO, Deputy Staff Director
                MIKE BLOOMQUIST, Minority Staff Director
             Subcommittee on Communications and Technology

                        MIKE DOYLE, Pennsylvania
                                 Chairman
JERRY McNERNEY, California           ROBERT E. LATTA, Ohio
YVETTE D. CLARKE, New York             Ranking Member
DAVID LOEBSACK, Iowa                 JOHN SHIMKUS, Illinois
MARC A. VEASEY, Texas                STEVE SCALISE, Louisiana
A. DONALD McEACHIN, Virginia         PETE OLSON, Texas
DARREN SOTO, Florida                 ADAM KINZINGER, Illinois
TOM O'HALLERAN, Arizona              GUS M. BILIRAKIS, Florida
ANNA G. ESHOO, California            BILL JOHNSON, Ohio
DIANA DeGETTE, Colorado              BILLY LONG, Missouri
G. K. BUTTERFIELD, North Carolina    BILL FLORES, Texas
DORIS O. MATSUI, California, Vice    SUSAN W. BROOKS, Indiana
    Chair                            TIM WALBERG, Michigan
PETER WELCH, Vermont                 GREG GIANFORTE, Montana
BEN RAY LUJAN, New Mexico            GREG WALDEN, Oregon (ex officio)
KURT SCHRADER, Oregon
TONY CARDENAS, California
DEBBIE DINGELL, Michigan
FRANK PALLONE, Jr., New Jersey (ex 
    officio)
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Mike Doyle, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     1
    Prepared statement...........................................     3
Hon. Robert E. Latta, a Representative in Congress from the State 
  of Ohio, opening statement.....................................     4
    Prepared statement...........................................     5
Hon. Billy Long, a Representative in Congress from the State of 
  Missouri, prepared statement...................................     7
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     7
    Prepared statement...........................................     8
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     9
    Prepared statement...........................................    10

                               Witnesses

Shirley Bloomfield, Chief Executive Officer, NTCA-The Rural 
  Broadband Association..........................................    12
    Prepared statement...........................................    15
James W. Assey, Executive Vice President, NCTA-The Internet and 
  Television Association.........................................    23
    Prepared statement...........................................    25
Grant B. Spellmeyer, Vice President, Federal Affairs and Public 
  Policy, United States Cellular Corporation.....................    35
    Prepared statement...........................................    37
Dana J. Floberg, Policy Manager, Free Press and Free Press Action 
  Fund...........................................................    44
    Prepared statement...........................................    46
Jonathan Spalter, President and Chief Executive Officer, 
  USTelecom......................................................    62
    Prepared statement...........................................    64
James W. Stegeman, President, CostQuest Associates...............    68
    Prepared statement \1\
    Answers to submitted questions...............................   176

                           Submitted Material

H.R. 4229, the Broadband Deployment Accuracy and Technological 
  Availability Act...............................................   109
H.R. 4128, the Map Improvement Act of 2019.......................   134
H.R. 4227, the Mapping Accuracy Promotes Services (MAPS) Act.....   141
H.R. 2643, the Broadband Mapping After Public Scrutiny Act of 
  2019...........................................................   144
H.R. 3162, the Broadband Data Improvement Act of 2019............   146
Letter of September 10, 2019 from James D. Ogsbury, Executive 
  Director, Western Governors Association, to Mr. Doyle and Mr. 
  Latta, submitted by Mr. Doyle..................................   161
Letter of September 9, 2019, from Jim Matheson, Chief Executive 
  Officer, National Rural Electric Cooperative Association, and 
  Shirley Bloomfield, Chief Executive Officer, NTCA-The Rural 
  Broadband Association, to Mr. Doyle and Mr. Latta, submitted by 
  Mr. Doyle......................................................   174

----------

\1\ Mr. Stegeman's prepared statement and additional material submitted 
for the record have been retained in committee files and also are 
available at https://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=109914.

 
 LEGISLATING TO CONNECT AMERICA: IMPROVING THE NATION'S BROADBAND MAPS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 11, 2019

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:29 a.m., in 
room 2322 Rayburn House Office Building, Hon. Mike Doyle 
(chairman of the subcommittee) presiding.
    Members present: Representatives Doyle, McNerney, Clarke, 
Loebsack, Veasey, Soto, O'Halleran, Eshoo, Butterfield, Matsui, 
Welch, Lujan, Schrader, Cardenas, Dingell, Pallone (ex 
officio), Latta (subcommittee ranking member), Olson, 
Kinzinger, Bilirakis, Johnson, Long, Flores, Brooks, Walberg, 
Gianforte, and Walden (ex officio).
    Also present: Representatives Rodgers and Griffith.
    Staff present: AJ Brown, Counsel; Jeffrey C. Carroll, Staff 
Director; Evan Gilbert, Deputy Press Secretary; Waverly Gordon, 
Deputy Chief Counsel; Alex Hoehn-Saric, Chief Counsel, 
Communications and Consumer Protection; Jerry Leverich, Senior 
Counsel; Dan Miller, Policy Analyst; Phil Murphy, Policy 
Coordinator; Joe Orlando, Staff Assistant; Alivia Roberts, 
Press Assistant; Tim Robinson, Chief Counsel; Adam Buckalew, 
Minority Director of Coalitions and Deputy Chief Counsel, 
Health; Michael Engel, Minority Detailee, Communications and 
Technology; Margaret Tucker Fogarty, Minority Staff Assistant; 
Theresa Gambo, Minority Financial and Office Administrator; 
Peter Kielty, Minority General Counsel; Bijan Koohmaraie, 
Minority Counsel, Consumer Protection and Commerce; Tim Kurth, 
Minority Deputy Chief Counsel, Communications and Technology; 
Brannon Rains, Minority Legislative Clerk; Evan Viau, Minority 
Professional Staff Member, Communications and Technology; and 
Nate Wilkins, Minority Fellow, Communications and Technology.
    Mr. Doyle. The Subcommittee on Communications and 
Technology will now come to order. The Chair now recognizes 
himself for 5 minutes for an opening statement.

   OPENING STATEMENT OF HON. MIKE DOYLE, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Before we get started, I just want to take a moment to 
remember the lives lost 18 years ago on September 11th. Many of 
us on the committee were there when this happened. I remember 
having breakfast in the Capitol when the first plane hit the 
tower, which I didn't know at the time. And when I got back to 
my office and saw my staff all watching the television sets is 
when the second plane hit, and we just knew something terrible 
had happened.
    And it seems like it couldn't have been 18 years ago, but 
it was, and I just think we want to remember all the sacrifices 
that got made by our police and firemen, all our first 
responders that ran towards that building. Many of them aren't 
with us today from illnesses that they contracted being down 
there at that site.
    And also remember that evening that we all stood on the 
steps of the Capitol, Democrats and Republicans locking arms 
and singing ``God Bless America,'' I remember that very vividly 
too. We probably could use a little bit more of that these days 
in this country, of coming together as Americans. But I just 
ask that may we just take a brief couple seconds for a moment 
of silence just to reflect on 9/11, 18 years ago, and all the 
people that passed.
    [Moment of silence.]
    Mr. Doyle. Thank you. Well, I want to welcome everyone to 
our first hearing since our August recess. Today, our hearing 
is focusing on Legislating to Connect America: Improving our 
Nation's Broadband Maps. This subcommittee will consider five 
pieces of legislation that I believe can help address serious 
problems with the way the FCC currently collects broadband 
deployment data.
    This is an often-discussed topic here in Congress, and the 
lack of clear data has often been a sore spot for many of here 
on the committee. However, the FCC in coordination with 
industry stakeholders has been making significant strides to 
improve the quality of some of these maps, and the bills before 
the committee today build on those efforts.
    Accurate maps of who does and who doesn't have access to 
broadband are a critical first step in closing the digital 
divide. We can't hope to solve this problem if we don't know 
the scope of the problem and where to put our resources.
    First, we have H.R. 4229, the Broadband Deployment Accuracy 
and Technological Availability Act, introduced by 
Representative Loebsack and Ranking Member Latta. This bill 
would dramatically improve the FCC broadband maps by requiring 
the FCC to collect and disseminate far more granular broadband 
data for both fixed and mobile services. The bill would also 
allow the FCC to use crowdsource data to help verify and 
supplement carrier-provided data.
    Second, we have H.R. 4128, the Map Improvement Act of 2019, 
introduced by Representatives Lujan, Bilirakis, and myself. It 
would standardize the methodology used for collecting and 
verifying coverage data provided by providers. It would also 
establish a new office within the FCC to serve as a central 
coordinator for the Commission's mapping efforts.
    Third, we have H.R. 4227, the Mapping Accuracy Promotion 
Services Act, introduced by Representatives McEachin, Long, 
Loebsack, and Latta. This bill would make it unlawful for a 
person to submit inaccurate broadband coverage data to the FCC.
    Fourth, we have H.R. 2643, the Broadband Mapping After 
Public Scrutiny Act of 2019, which has been introduced by 
Ranking Member Latta and my good friend Mr. Welch. This bill 
would create a challenge process at the FCC for fixed and 
mobile broadband coverage data and allow private entities as 
well as State, local, and Tribal government entities to verify 
coverage data submitted to the FCC.
    And, finally, we will consider H.R. 3162, the Broadband 
Data Improvement Act of 2019, introduced by Representative 
McMorris Rodgers and Representative O'Halleran. This bill would 
update the FCC's mapping process, establish a public challenge 
process and require Federal agencies to use the newly created 
broadband maps to determine the extent and the availability of 
broadband in the United States.
    I look forward to the testimony of our witnesses and the 
discussion about this important legislation.
    [The prepared statement of Mr. Doyle follows:]

                 Prepared Statement of Hon. Mike Doyle

    Good morning.
    Before we get started, I'd like to take a moment to 
remember the lives lost 18 years ago on September 11th, and the 
extraordinary sacrifices made by the police, firefighters, and 
EMS techs who responded to those horrific attacks as well as 
those who have fought to keep us safe and keep fighting for our 
country every day. We owe all of them a tremendous debt.
    With that, I'd like to welcome everyone to our first 
hearing since the August recess. Today's legislative hearing is 
titled ``Legislating to Connect America: Improving the Nation's 
Broadband Maps.''
    The subcommittee will consider 5 pieces of legislation that 
I believe can help address serious problems with the way the 
Federal Communications Commission currently collects broadband 
deployment data.
    This is an often-discussed topic here in Congress, and the 
lack of clear data has often been a sore spot for many of us on 
the committee. However, the FCC in coordination with industry 
stakeholders has been making significant strides to improve the 
quality of some of these maps, and the bills before the 
committee today build on those efforts.
    Accurate maps of who does and doesn't have access to 
broadband are a critical first step in closing the digital 
divide. We can't hope to solve this problem if we don't know 
the scope of it--and where to put our resources.
    First, we have H.R. 4229, the ``Broadband Deployment 
Accuracy and Technological Availability Act,'' introduced by 
Representative Loebsack and Ranking Member Latta. This bill 
would dramatically improve the FCC broadband maps by requiring 
the FCC to collect and disseminate far more granular broadband 
data for both fixed and mobile services. The bill would also 
allow the FCC to use crowdsourced data to help verify and 
supplement carrier-provided data.
    Second, we have H.R. 4128, the ``Map Improvement Act of 
2019,'' introduced by Representatives Lujan, Bilirakis, and 
myself. It would standardize the methodology used for 
collecting and verifying coverage data provided by providers. 
It would also establish a new office within the FCC to severe 
as a central coordinator for the Commission's mapping efforts.
    Third up, we have H.R. 4227, the ``Mapping Accuracy 
Promotes Services Act,'' introduced by Representatives 
McEachin, Long, Loebsack, and Latta. This bill would make it 
unlawful for a person to submit inaccurate broadband coverage 
data to the FCC.
    Fourth, we will consider H.R. 2643, the ``Broadband Mapping 
After Public Scrutiny Act of 2019,'' introduced by Ranking 
Member Lata and my good friend Congressman Welch. This bill 
would create a challenge process at the FCC for fixed and 
mobile broadband coverage data--and allow private entities as 
well as State, local, and Tribal government entities to verify 
coverage data submitted to the FCC.
    Finally, we will consider H.R. 3162, the ``Broadband Data 
Improvement Act of 2019,'' introduced by Representatives 
McMorris Rodgers and O'Halleran. This bill would update the 
FCC's mapping process, establish a public challenge process, 
and require Federal agencies to use the newly created broadband 
maps to determine the extent and availability of broadband in 
the United States.
    I look forward to the testimony of our witnesses and the 
discussion about these important bills.
    I yield the balance of my time to Congressman Loebsack.

    Mr. Doyle. And at this time, I would like to yield the 
balance of my time to Congressman Loebsack.
    Mr. Loebsack. Thank you, Chairman Doyle and Chairman 
Pallone, Ranking Members Walden and Latta, for holding this 
legislative hearing today. And thank you, Chairman Doyle, for 
giving me some of your time.
    There is a lot of great stuff in the Broadband Development 
Accuracy and Technological Availability Act or Broadband DATA 
Act and we will be discussing that shortly. But I would first 
like to extend an extra special thanks to Ranking Member Latta 
for working with me to introduce the Broadband DATA Act. I have 
long been an advocate for better maps and the needs of rural 
America, and I don't know that I could have had a better ally, 
quite honestly, than my friend from Ohio. Further, I thank 
Ranking Member Latta for agreeing to continue working with me 
on this bill as we look forward to an eventual subcommittee 
markup. Hopefully that will happen sooner rather than later.
    We have had some great conversations with stakeholders, 
many of whom are represented on the panel today or in the 
audience, and I believe there is still some potential for some 
improvements between now and the markup. And just quickly, some 
of the things that we might continue to work on: creating 
additional clarity that this bill will keep data publicly 
available; looking at the addition of an authorization of 
funding; studying the use of USF funds for administrative 
costs; exploring a GAO study or ongoing review process for what 
source of information are informing the fabric; and considering 
how we ensure we are not burdening small businesses.
    I am very proud of the bill that Representative Latta and I 
introduced and we will be talking about today and I think we 
have a bill that is ready for markup and passage on the House 
floor, but there might be some room for improvement and I am 
willing to work with Congressman Latta going forward. And with 
that I yield back my time.
    Mr. Doyle. The gentleman yields back. The Chair now 
recognizes my friend Mr. Latta, the ranking member of the 
subcommittee, for 5 minutes.

OPENING STATEMENT OF HON. ROBERT E. LATTA, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Latta. Well, thank you, Mr. Chairman. If I could offer 
before my time begins, I would like to thank you for your very 
sincere words on remembering 9/11. I think everyone in this 
room can remember where they were that day and the very impact 
it has had on this Nation. And I totally agree with you that, 
you know, the country came together that day. I was in the Ohio 
legislature at the time, but I appreciate your words, and we 
have to always remember what happened on that day. So thank 
you.
    I would like to welcome you to today's committee 
legislative hearing on potential solutions to accurately map 
broadband availability in rural America. I thank our witnesses 
for joining us and providing their thoughts on this issue. 
Extending the reach of broadband in rural Ohio and across 
America is critical to ensure everyone can participate in the 
digital economy.
    Since passage of the 1996 Telecommunications Act, the 
private sector has invested roughly $1.7 trillion in their 
broadband networks. We should acknowledge this investment in 
rural deployment; ensure that government-supported solutions 
complement private capital instead of competing with it. This 
is becoming increasingly important with some proposals calling 
for as much as 150 billion in government funding to publicly 
own and operate networks nationwide.
    Today's legislative hearing features several bills 
introduced by committee members who deeply understand the lack 
of connectivity across their districts. Our constituents tell 
us when they don't have service and it is through their voices 
that I have heard and work with my colleagues on two of the 
bipartisan bills that will be discussed today.
    The Broadband MAPS Act, which I introduced with my very 
good friend, the gentleman from Vermont, would help to verify 
reported data through a public challenge process. And the 
Broadband DATA Act, which I have developed with my good friend, 
very good friend, the gentleman from Iowa, would take a 
comprehensive approach to fixing our Nation's maps. I believe 
that these bills will help build on the success of our previous 
partnership to deploy broadband to rural farmlands through the 
Precision Agriculture Connectivity Act.
    As we look to the FCC's next round of Universal Service 
Funding, it is vital that we work in a bipartisan manner to 
ensure that there is a verified, accurate, and granular 
foundation upon which we make these funding decisions. Congress 
has an important oversight role to play in ensuring that we do 
not repeat the mistakes of the past. With limited Federal 
dollars to go around, we simply cannot afford to misidentify 
areas as served which are truly unserved. Only with accurate 
and granular data will we begin to close the last frontier of 
the digital divide.
    It is also critical that a robust, user-friendly challenge 
process is in place to appropriately dispute potential 
inaccuracies within the coverage maps. We must and have to get 
the maps right, and in creating a pathway for the FCC to 
consider additional broadband data will help achieve that goal.
    As we move toward committee markups, I anticipate 
continuing discussions with my friends across the aisle on 
several outstanding issues such as striking the right balance 
between protecting competitive, sensitive information while 
providing transparency to consumers; ensuring that we can 
leverage data the best we can across the Federal Government and 
addressing the cost of the fabric and ongoing review of the 
fabric's reach and effectiveness; and, finally, examining 
unintended impacts of certain requirements on small businesses.
    I thank the chairman for holding this hearing and I am 
committed to working with my colleagues on these issues through 
regular order.
    [The prepared statement of Mr. Latta follows:]

               Prepared Statement of Hon. Robert E. Latta

    Welcome to today's subcommittee legislative hearing on 
potential solutions to accurately map broadband availability in 
rural America. I thank our witnesses for joining us and 
providing their thoughts on this issue. Extending the reach of 
broadband in rural Ohio, and across America, is critical to 
ensure everyone can participate in the digital economy.
    Since passage of the 1996 Telecommunications Act, the 
private sector has invested roughly $1.7 trillion in their 
broadband networks. We should acknowledge this investment in 
rural deployment and ensure that government-supported solutions 
complement private capital instead of competing with it. This 
has become increasingly important with some proposals calling 
for as much as $150 billion in government funding to publicly 
own and operate networks nationwide.
    Today's legislative hearing features several bills 
introduced by committee members who deeply understand the lack 
of connectivity across their districts. Our constituents tell 
us when they don't have service and it's through their voices 
that I've worked with my colleagues on two bipartisan bills 
that will be discussed today. The Broadband MAPS Act, which I 
introduced with Representative Welch, would help to verify 
reported data through a public challenge process. And, the 
Broadband DATA Act, which I've developed with Representative 
Loebsack, would take a comprehensive approach to fixing our 
Nation's maps. I'm hopeful that this bill will build on the 
success our of previous partnership to deploy broadband to 
rural farm lands through the Precision Agriculture Connectivity 
Act.
    As we look to the FCC's next round of Universal Service 
Funding, it is vital that we work in a bipartisan way to make 
sure there is a verified, accurate, and granular foundation 
upon which we make these funding decisions. Congress has an 
important oversight role to play in ensuring that we do not 
repeat the mistakes of the past. With limited Federal dollars 
to go around, we simply cannot afford to misidentify areas as 
served which are truly unserved. Only with accurate and 
granular data will we begin to close the last frontier of the 
digital divide.
    It is also critical that a robust, user-friendly challenge 
process is in place to appropriately dispute potential 
inaccuracies within the coverage maps. We must get the maps 
right and creating a pathway for the Commission to consider 
additional broadband data will help achieve that goal. As we 
move toward committee markups, I anticipate continuing 
discussions with my friends across the aisle on several 
outstanding issues, such as:
    <bullet> striking the right balance between protecting 
competitively sensitive information while providing 
transparency to consumers;
    <bullet> ensuring we can leverage data the best we can 
across the Federal Government;
    <bullet> addressing the cost of the fabric and the ongoing 
review of the fabric's reach and effectiveness; and,
    <bullet> examining unintended impacts of certain 
requirements on small businesses.
    I thank the chairman for holding this hearing, and I'm 
committed to working with my colleagues on these issues through 
regular order. I yield the remainder of my time to Mr. Long.

    Mr. Latta. And at this time, I would like to yield the rest 
of my time to my good friend, the gentleman from Missouri.
    Mr. Long. Thank you for yielding. And I would like to thank 
the witnesses for being here, and I am happy to see that the 
subcommittee is prioritizing the need to develop accurate 
broadband maps.
    For rural communities such as Missouri's 7th congressional 
district, access to broadband is as scarce as hen's teeth. I 
think we can all agree that mapping and graphically displaying 
where broadband is and is not available at certain speeds is a 
critical tool in closing the digital divide. As we move 
forward, I believe it is important that the broadband mapping 
update be paired with appropriate enforcement measures to 
ensure that providers' submissions are complete and accurate, 
which is why I am working with my colleagues on H.R. 4227 and 
the MAPS Act.
    In closing, I would like to thank Representative Dave 
Loebsack of Iowa; the telecom ranking member, Bob Latta; and 
Donald McEachin, Virginia, for their work on both the Broadband 
DATA Act and MAPS Act, and I am committed to working together 
toward the subcommittee markup and sticking the landing on this 
important topic. I yield back.
    [The prepared statement of Mr. Long follows:]

                 Prepared Statement of Hon. Billy Long

    I'd like to thank the witnesses for being here, and I'm 
happy to see the subcommittee is prioritizing the need to 
develop accurate broadband maps.
    For rural communities, such as those in Missouri's 7th 
Congressional District, access to broadband is scarce. I think 
we can all agree that mapping--graphically displaying where 
broadband is and is not available at certain speeds--is a 
critical tool in closing the digital divide.
    As we move forward, I believe it is important that any 
broadband mapping update be paired with appropriate enforcement 
measures to ensure that providers' submissions are complete and 
accurate--which is why I'm working with my colleagues on H.R. 
4227, the MAPS Act.
    In closing, I'd like to thank Representatives Dave Loebsack 
(D-IA), Bob Latta (R-OH), and Donald McEachin (D-VA) for their 
work on both theBroadband DATA Act and the MAPS Act and I am 
committed to working together towards a subcommittee markup.

    Mr. Latta. Mr. Chairman, I yield back the balance of my 
time.
    Mr. Doyle. The gentleman yields back. The Chair now 
recognizes Mr. Pallone, chairman of the full committee, for 5 
minutes for his opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, Jr., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Chairman Doyle.
    This year our committee is focused on improving 
telecommunications services for consumers. In July, the House 
overwhelmingly passed the bipartisan Stopping Bad Robocalls 
Act, and earlier this year the House passed legislation that 
restores a free and open internet by reinstating net 
neutrality. And now this subcommittee continues its work on a 
range of pro-consumer issues including broadband deployment, 
spectrum policy, supply chain security, and more.
    Broadband mapping is a central component in each of these 
discussions. Without good maps we can't correctly determine how 
we should target funding for broadband access and adoption in 
rural and urban areas. Without good maps we don't have enough 
detail to assess competition or review mergers. And without 
good maps we don't have a proper view of whether the FCC is 
appropriately using its authority to benefit consumers.
    It is not an exaggeration, in my opinion, to say this FCC's 
terrible broadband data is its Achilles Heel. And the 
statistics show just how bad this problem is. Free Press 
recently discovered that one carrier alone was overstating its 
deployment by 2.2 million consumers, throwing off the FCC's 
entire estimate of unserved Americans. And CostQuest discovered 
as part of its State pilot program that as many as 38 percent 
of households in the study area might be unserved, but the FCC 
may count them as served.
    I think it is a huge problem. Fortunately, there is 
bipartisan agreement on this subcommittee that the FCC's bad 
maps need to be fixed. Last year, Representative Loebsack's 
Rural Wireless Access Act was signed into law which aimed at 
fixing the FCC's wireless data. Unfortunately, the FCC hasn't 
yet taken the action required by law due to the ongoing 
investigation into carriers intentionally submitting bad data 
as part of the Mobility Fund II proceeding.
    So it is clear that despite our past action more work needs 
to be done, and I thank the many Members who have worked hard 
to solve this problem.
    [The prepared statement of Mr. Pallone follows:]

             Prepared Statement of Hon. Frank Pallone, Jr.

    This year, our committee has focused on improving 
telecommunications services for consumers. In July, the House 
overwhelmingly passed the bipartisan Stopping Bad Robocalls 
Act, and earlier this year the House passed legislation that 
restores a free and open internet by reinstating net 
neutrality. And now this subcommittee continues its work on a 
range of pro-consumer issues including broadband deployment, 
spectrum policy, supply chain security, and more.
    Broadband mapping is a central component in each of those 
discussions. Without good maps, we cannot correctly determine 
how we should target funding for broadband access and adoption 
in rural and urban areas. Without good maps, we don't have 
enough detail to assess competition or review mergers. And 
without good maps, we don't have a proper view of whether the 
Federal Communications Commission (FCC) is appropriately using 
its authority to benefit consumers.
    It is not an exaggeration to say this FCC's terrible 
broadband data is its Achilles heel.
    And the statistics show just how bad this problem is. Free 
Press recently discovered that one carrier alone was 
overstating its deployment by 2.2 million consumers, throwing 
off the FCC's entire estimate of unserved Americans.
    CostQuest discovered as part of its State pilot program 
that as many as 38 percent of households in the study area 
might be unserved, but the FCC may count them as served.
    This is a huge problem. Fortunately, there is bipartisan 
agreement on this subcommittee that the FCC's bad maps need to 
be fixed. Last year, Representative Loebsack's Rural Wireless 
Access Act was signed into law, which aimed at fixing the FCC's 
wireless data. Unfortunately, the FCC hasn't yet taken the 
actions required by law due to the ongoing investigation into 
carriers intentionally submitting bad data as part of the 
Mobility Fund II proceeding.
    It's clear that despite our past action more work needs to 
be done. I thank the many Members who have worked hard to solve 
this problem.

    Mr. Pallone. I have 3 minutes. I would like to yield, 
basically split it if I could, between Representative Lujan and 
Representative O'Halleran. And I yield the minute and a half 
now to Representative Lujan, Mr. Chair.
    Mr. Lujan. Thank you to the chairman and to the ranking 
members. When it comes to broadband access, according to the 
FCC more than 21 million Americans lack access to high-speed, 
fixed broadband. We know that is because of no connectivity or 
unaffordability. And as the chairman pointed out, wireless maps 
are also not accurate. As a matter of fact, in my opinion, they 
are misleading. Because of the problems with how broadband data 
is collected and mapped, no one really knows what the number 
is. The problem most likely is significantly worse.
    This is also a life and death issue. Ashlynne Mike was an 
11-year-old Navajo girl who was kidnapped, raped, and murdered 
in 2016. When Ashlynne went missing, the AMBER Alert systems 
didn't work and there was no connectivity.
    Mr. Chairman, we have to act. And I thank Chairman Doyle 
and Congressman Bilirakis for partnering with me on the Map 
Improvement Act, and I thank my colleagues for their related 
efforts, and I yield back.
    Mr. Pallone. I yield the rest of my time to Mr. O'Halleran.
    Mr. O'Halleran. Thank you, Mr. Chairman. Today this 
committee takes an important step towards helping rural America 
connect to the internet. According to the FCC, only 40 percent 
of rural Arizona is currently connected in the home at FCC 
standard speeds. And even this data point likely overstates 
broadband coverage due to the census block reporting regime.
    Working together, I know this committee can right this 
wrong. The legislation before us today including my and 
Representative Rodgers bipartisan bill, the Broadband Data 
Improvement Act, takes important steps to improve how the FCC 
and Federal agencies identify where broadband coverage exists 
and where it does not. Just last month, the FCC adopted 
concepts from this bill to move away from census block 
reporting and instead ask the internet providers to report 
shapefiles of their current coverage offerings.
    There is still more work to be done, and I am pleased to 
see the bills before us today continue to move us towards 
making the National Broadband Map as accurate as possible. Mr. 
Chairman, I am excited to work in a bipartisan manner on this 
important issue and, collectively, I know we can achieve our 
mutual goal. And I yield.
    Mr. Doyle. The gentleman yields back. The Chair now 
recognizes Mr. Walden, ranking member of the full committee, 
for 5 minutes for his opening statement.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Well, good morning, Mr. Chairman, and thank you 
and thanks to all our witnesses for being here. Some familiar 
faces back at the table. We appreciate your guidance and 
counsel on these matters. I want to thank my colleague from 
California, Ms. Eshoo. We worked a lot on these issues going 
back over a number of years and thank you for your leadership. 
And we are still not there, but we are working at it.
    It is obviously an issue that I have cared about a lot over 
the last couple of decades. And some of my friends will 
remember when the stimulus bill was being voted through this 
committee, I pled, begged, and even had an amendment to do the 
mapping before the money went out, and unfortunately we came up 
a few votes short on that. But maybe today we will begin this 
process because the money needs to go where it is needed and 
not overbilled and serve these markets that claim on the maps 
that are already served, but yet they aren't.
    And so, while the incentives have expanded broadband access 
and made communicating and participating in a 21st century 
economy easier than ever before, much work remains to connect 
all Americans to high-speed internet broadband. I want to use 
an example, Weston, Oregon, which is in Eastern Oregon in my 
district. The mayor, Jennifer Spurgeon, describes their 
internet service as being dial-up, just without the modem 
noise, all right. And she told Chairman Pai that when he was 
out a year or so ago, and I thought it was a pretty good line.
    They frequently experience, obviously, sub-megabit speeds. 
Sub-megabit. So you can imagine how surprised they were when 
the FCC's map said they had 100-megabit service. And so they 
were a little surprised because, yes, it is dial-up without the 
modem noise.
    As chairman of this committee, we worked in a bipartisan 
fashion last Congress, many of you will recall, to enact 
legislation to promote rural broadband and I am hopeful we can 
build on that same spirit of bipartisanship. We included 
provisions in the RAY BAUM'S Act to improve the methodology for 
the collection of mobile service coverage to streamline access 
to easements and rights-of-way and lease requests for deploying 
communications equipment on Federal property--just for the 
record, my district is over 50 percent Federal land, so trying 
to do anything out there can be very time-consuming, costly, 
and burdensome--and we wanted to improve efficiency of spectrum 
allocation.
    So as we continue our oversight of RAY BAUM'S Act as well 
as our efforts to spur broadband deployment in rural America, 
we must also ensure the Universal Service Program is 
efficiently and effectively reaching truly unserved parts of 
America. So I applaud Chairman Pai for his leadership on this 
front, proposing a Rural Digital Opportunity Fund using cost-
efficient reverse auctions to better allocate limited financial 
support from the Feds.
    At the same time, we must ensure that the FCC is relying on 
accurate and sufficiently granular information when making 
these decisions. There are areas that we all know are unserved. 
That is pretty obvious, and then of course we know of the 
underserved areas.
    But what we really need are really good maps that show us 
for sure. The Senate has already moved a consensus bill through 
their committee to address this issue, which I believe 
represents an interesting path. The legislation before us today 
rightly underscores the importance of this issue and the 
attention it has earned among members of the committee.
    There are a number of issues with which Republicans are 
committed to working on with our counterparts, such as how we 
are going to provide funding, how to balance publicly available 
information, and how to improve data sources, and how we can 
best leverage the data to the greatest extent possible across 
the Federal Government. Other Members have also put forward 
bills to address rural broadband challenges, and these 
proposals deserve consideration as well and I expect we will 
hear about some of those other bills today.
    So again, Mr. Chairman, thanks for your leadership on this. 
Thanks for holding this hearing today and we look forward to 
working in a good bipartisan spirit to connect America and to 
have maps that show the truth. We are all about facts and truth 
here, so let's get 'er done. Thank you. I yield back.
    [The prepared statement of Mr. Walden follows:]

                 Prepared Statement of Hon. Greg Walden

    Thank you, Mr. Chairman. I want to welcome our witnesses to 
this hearing on the importance of accurately mapping broadband 
availability in America.
    This is an issue I've been working on for two decades. Many 
of you will remember that I advocated ``mapping before money'' 
for the Obama administration's stimulus act. Unfortunately, I 
was voted down along party lines, but my warnings and those of 
my Republican colleagues were borne out, and documented by news 
outlets, such as Politico in an article entitled ``Wired to 
Fail.''
    While market incentives have expanded broadband access and 
made communicating and participating in the 21st century 
economy easier than ever before, much work remains to connect 
all Americans to high speed broadband. It's past time to get 
accurate mapping data.
    Take the community of Weston in eastern Oregon as an 
example. Mayor Jennifer Spurgeon describes their internet 
service as being dialup, just without the modem noise. They 
frequently experience sub-megabit speeds. You can imagine they 
are surprised to learn they have 100-megabit service according 
to the FCC's map.
    Under my chairmanship, this committee worked in a 
bipartisan fashion last Congress to enact legislation to 
promote rural broadband, and I'm hopeful we can continue to 
build on our past success.
    We included provisions in RAY BAUM'S Act to improve the 
methodology for the collection of mobile service coverage; 
streamline access to easements, rights-of-way, and lease 
requests for deploying communications equipment on Federal 
property; and improve the efficiency of spectrum allocation.
    As we continue our oversight of RAY BAUM'S Act as well as 
our efforts to spur broadband deployment in rural America, we 
must also ensure that the Universal Service program is 
efficiently and effectively reaching truly unserved areas. I 
applaud Chairman Pai for his leadership on this front, 
proposing a Rural Digital Opportunity Fund using cost-efficient 
reverse auctions to better allocate limited Federal support.
    At the same time, we must ensure that the FCC is relying on 
accurate and sufficiently granular information when making 
these decisions. There are areas that we all know are unserved, 
and sufficiently precise data will help better reach these 
areas. Too often, the areas most in need of Federal broadband 
support get lost in the rush to dole out government funds, 
especially when program rules distort eligibility for some 
areas that are already adequately served. Without the best 
available data identifying parts of the country that need funds 
most the vicious cycle of leaving rural Americans behind will 
continue.
    The Senate has already moved a consensus bill through their 
committee to address this issue, which I believe represents an 
interesting path. The legislation before us today rightly 
underscores the importance of this issue and the attention it 
has earned among members of the committee. There are a number 
of issues which Republicans are committed to working on with 
our counterparts--such as how we're going to provide funding, 
how to balance publicly available information, how to improve 
data sources, and how we can best leverage the data to the 
greatest extent possible across the Federal Government.
    Other Members have also put forward bills to address rural 
broadband challenges, and these proposals deserve consideration 
as well. I expect we'll hear about some of those other bills 
today.
    Thank you again for holding this hearing today, I hope we 
can continue working on a bipartisan basis through regular 
order to get the job done.

    Mr. Doyle. I thank the gentleman and he yields back.
    The Chair would like remind Members that, pursuant to 
committee rules, all Members' written opening statements will 
be made part of the record.
    I would now like to introduce our witnesses for today's 
hearing: Ms. Shirley Bloomfield, chief executive officer, NTCA-
The Rural Broadband Association; Mr. James Assey, executive 
vice president, NCTA-The Internet and Television Association; 
Mr. Grant Spellmeyer, vice president, Federal Affairs and 
Public Policy, U.S. Cellular; Ms. Dana Floberg, policy manager, 
Free Press and Free Press Action; Mr. Jonathan Spalter, 
president and CEO of the USTelecom Association; and Mr. James 
Stegeman, president and CEO of CostQuest Associates.
    We want to thank all of our witnesses for joining us today. 
We look forward to your testimony. At this time, the Chair will 
now recognize each witness for 5 minutes to provide their 
opening statement.
    But before we begin, I would like to explain our lighting 
system. The light in front of you will initially be green at 
the start of your opening statement. It will turn yellow when 
you have 1 minute remaining, and please begin to wrap your 
testimony at that point. The light will turn red when your time 
expires.
    And with that, Ms. Bloomfield, you are now recognized for 5 
minutes.

STATEMENTS OF SHIRLEY BLOOMFIELD, CHIEF EXECUTIVE OFFICER, NTCA 
 09THE RURAL BROADBAND ASSOCIATION; JAMES M. ASSEY, EXECUTIVE 
VICE PRESIDENT, NCTA 09THE INTERNET AND TELEVISION ASSOCIATION; 
GRANT B. SPELLMEYER, VICE PRESIDENT, FEDERAL AFFAIRS AND PUBLIC 
 POLICY, UNITED STATES CELLULAR CORPORATION; DANA J. FLOBERG, 
POLICY MANAGER, FREE PRESS AND FREE PRESS ACTION FUND; JONATHAN 
SPALTER, PRESIDENT AND CHIEF EXECUTIVE OFFICER, USTELECOM; AND 
       JAMES W. STEGEMAN, PRESIDENT, COSTQUEST ASSOCIATES

                STATEMENT OF SHIRLEY BLOOMFIELD

    Ms. Bloomfield. Thank you very much, Chairman Doyle, 
Ranking Member Latta, Mr. Walden, and members of the 
subcommittee. It is so terrific that you all are gathered here 
today coming back from recess to talk about something so 
important like broadband mapping and the legislation you have 
that is being considered by the subcommittee. I am Shirley 
Bloomfield, CEO of NTCA-The Rural Broadband Association. I have 
850 community-based providers across the country in 46 States 
that really serve the most sparsely populated parts of our 
Nation.
    A major challenge associated with making informed policy 
and investment decisions regarding the deployment of broadband 
in these rural sparse areas is whether there is or is not 
service already, which is why the hearing is so important 
today. But as it stands today as you have noted, the FCC 
maintains the most accurate maps available for most areas, but 
these mapping efforts are still frustratingly inconsistent and 
unreliable.
    We find it is not unusual the conditions that are actually 
on the ground look very different from what appears on a 
national map. And we know that the current FCC maps miss the 
mark because they show an entire census area served when even 
if it is just one location in the block that is served, meaning 
that the entire census block becomes ineligible for support 
funding.
    This false positive can mean a single customer can result 
in unserved customers miles away looking served on a map. In 
other words, perhaps the most important significant problem we 
have is granularity. Just last month the FCC did adopt an order 
that will move away from the overly broad use of census blocks 
for reporting broadband coverage and instead is now going to 
require providers to submit shapefiles. And that will actually 
be a good step forward.
    At the same time, the FCC agrees with NTCA that we should 
not stop at shapefiles alone, but we should continue to move 
forward towards a uniform national dataset on top of which 
carriers can report broadband availability to ensure that this 
data can ultimately translate to which locations in our country 
are served or are not. This movement offers great promise in 
getting more granular maps, but it is really essential to 
remember that granularity and accuracy are not the same thing.
    In fact, there are a few key steps that must be taken to 
promote accuracy separate and apart from granularity. First, we 
have got to standardize reporting. We have got to make sure 
that everybody reports on an apples-to-apples basis. That is 
really critical. Specific technical standards should be 
established and we must ensure that providers are not making 
unreasonable or unrealistic assumptions about the capacities 
that they actually have. We simply cannot rely on people 
reporting advertised speeds across a wide swath of rural 
America to be considered sufficient.
    In addition to tracking speeds, NTCA submits that the FCC 
should require reports specifically on the latency and the 
usage limits applicable to broadband services. Latency and 
usage limits can play a really critical role in the consumer 
experience, particularly when you are doing something really 
important like telemedicine or distance learning. And it would 
be useful and not an incrementally difficult database to 
gather.
    But even if you do standardization up front to improve the 
mapping inputs, all of that data in question still becomes 
self-reported. It is self-reported data, so therefore you are 
going to have to have a back-end validation process as well to 
ensure that the process actually has integrity. So one of these 
validation processes could be crowdsourcing, which allows users 
to actually report what they are experiencing on the ground. 
The crowdsource data must be implemented thoughtfully so that 
it provides value and detects noteworthy trends rather than 
creating confusion or burdens. Think of a heat map and what 
that data tells you.
    Another and perhaps more critical validation that the 
Commission could utilize would be a robust challenge process 
anytime that it is preparing to make significant funding or 
other policy decisions. A challenge process would enable 
providers and policymakers to do one last sanity check on the 
accuracy of the map before decisions are actually reached.
    A lot of broadband deployment since the most current map 
which is out there, which is in 2017, and we want to make sure 
that we are not doing overbuilding using Federal support 
because that is not the best use of limited resources. Improve 
the maps on the front end, validate on the back end. American 
consumers deserve the integrity of that process.
    Turning specifically to the role that Congress and this 
committee can play, the legislation that you have under 
consideration, we applaud the careful attention that 
Representative Loebsack and Latta have placed in looking at a 
couple of things. First, making immediate granularity 
improvements in the form of shapefiles, very critical. Second, 
moving towards a more granular location fabric in the future, 
so we can really get a clearer picture. And third, calling 
explicitly for standard development and challenge processes to 
improve the data collection on both the front end and the back 
end.
    So due in large part to the leadership of this committee 
and the subcommittee, small broadband providers like those in 
NTCA's membership have really made great strides in reducing 
the digital divide. But the job is far from done and you know 
that. We have got to make sure that we can use these maps to 
really figure out where broadband is lacking and sustain 
broadband where it actually exists today.
    So on behalf of NTCA and all the members that we represent, 
we thank you sincerely for this hearing.
    [The prepared statement of Ms. Bloomfield follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Doyle. Thank you very much.
    The Chair now recognizes Mr. Assey for 5 minutes.

                  STATEMENT OF JAMES M. ASSEY

    Mr. Assey. Thank you. Good morning, Mr. Doyle, Ranking 
Member Latta, members of the subcommittee. My name is James 
Assey and I am the executive vice president of NCTA-The 
Internet and Television Association. NCTA's members include the 
Nation's largest providers of high-speed internet access as 
well as small ISPs serving some of the most rural parts of the 
country. We welcome today's hearing focused on several bills to 
improve broadband mapping and look forward to working with you 
on these issues.
    Over the last 2 decades, our broadband maps have helped 
chart the rapid growth and expansion of internet technology. 
Indeed, following hundreds of billions of dollars invested by 
the cable industry and other ISPs, high-speed internet service 
has rapidly expanded to reach over 90 percent of American 
households. Yet, despite such success there are still many 
places today where broadband service is not available and 
likely may not be without some form of government support.
    Ideally, data from our broadband maps would help us 
identify these coverage gaps. But, regrettably, while the tools 
currently used offer some assistance in highlighting unserved 
areas, our system at present is too crude to fully perform this 
role with desired precision. This is because the FCC's map 
today relies on information submitted on Form 477 that requires 
providers to report deployment data at a census block level.
    While such an approach helps us identify census blocks that 
are wholly unserved, it also leads to some admitted mistakes as 
the methodology counts an entire census block as served even if 
just a single household in the block has access. Thankfully, we 
can improve this process.
    Indeed, the FCC has recently taken significant steps in 
this direction adopting a proposal suggested by NCTA that will 
require providers to submit polygon shapefiles or coverage maps 
that more precisely reflect the areas where service can be 
offered in the normal course of business. Importantly, these 
rules will also permit further refinement through public, 
crowdsourced feedback that will promote a more accurate picture 
of broadband availability.
    As the committee considers mapping legislation, we 
encourage it to build on what the FCC has done and refrain from 
actions that might delay the swift implementation of these 
improvements. Consistent with this belief, we commend 
Congressman Loebsack, Ranking Member Latta, as well as 
Congresswoman McMorris Rodgers and O'Halleran for their 
respective efforts on the Broadband DATA Act and the Broadband 
Data Improvement Act. Each of these bills would ratify the 
FCC's reliance on more granular shapefile submissions, secure a 
more robust validation and challenge process, and improve 
coordination among Federal agencies to track broadband funding 
awards.
    Beyond the clear benefits of shapefile reporting, we note 
that some providers have suggested that the FCC create other 
tools to complement an improved map of served and unserved 
areas. Unlike shapefiles, the location fabric tool suggested by 
USTelecom focuses not on the more granular identification of 
unserved areas, but rather determining the precise location of 
serviceable buildings within unserved areas.
    Admittedly, such data could be helpful to bidding parties 
in sizing the potential cost of serving unserved areas. But it 
also raises a number of thorny implementation questions that 
deserve to be fully explored on the public record. Indeed, the 
FCC's pending further rulemaking tees up many of these issues 
for consideration and offers a perfect venue for parties to 
test private claims and consider the marginal costs and 
benefits of creating a new location tool.
    Finally, as we work to improve the accuracy of maps 
identifying unserved areas, a process that has already taken 2 
years at the FCC, we should avoid getting sidetracked by 
attempts to insert extraneous data points into the 
consideration of whether broadband service is or is not 
available in a particular area.
    The FCC already collects a wealth of data from broadband 
providers and each type of data has value, but attempts to 
graft new data requests onto mechanisms designed to address 
broadband availability would only muddy the waters, increase 
costs, and could delay funding to unserved areas. Instead, we 
encourage you to appreciate the relevance of specific data to 
its specific context so as to help identify the signal from the 
noise and keep improvements moving forward as cleanly and 
efficiently as possible.
    At the end of the day we know that no map will be perfect 
and that every map is only a snapshot of a world where 
conditions constantly change. But with common purpose and 
humility we can work together to meaningfully improve the 
accuracy of our current maps in ways that are practical and 
advance our national interest in bringing the benefits of 
broadband to all.
    Thank you for this opportunity and look forward to your 
questions.
    [The prepared statement of Mr. Assey follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Doyle. Thank you.
    Mr. Spellmeyer, you are now recognized for 5 minutes.

                STATEMENT OF GRANT B. SPELLMEYER

    Mr. Spellmeyer. Thank you. Chairman Doyle, Ranking Member 
Latta, members of the subcommittee, thank you for the 
opportunity to testify today on broadband mapping. Just for the 
benefit of the Members assembled here today, I am the wireless 
witness. I am going to talk about the wireless side of the 
mapping. Most of my colleagues here at the table are going to 
be speaking, you know, exclusively to the wireline side and I 
want to try to avoid a little bit of confusion over some of the 
nomenclature that you will hear.
    With that said, U.S. Cellular fully supports legislative 
efforts to improve broadband mapping including all of the bills 
before this committee today. As you well know, this is not the 
first congressional hearing on the topic of broadband mapping. 
Thanks to this committee's continuing oversight efforts, it is 
now universally accepted that the FCC's maps overstated 
coverage in rural areas, sometimes significantly.
    U.S. Cellular operates in 21 States across America 
including many of those represented on this committee. Much of 
our business involves finding ways to provide service in small 
towns and on rural roads, areas where population density, 
economic investment, and income levels are often well below 
urban areas. We are constantly thinking about ways to address 
the economics of providing vital broadband services to those 
areas.
    Accurately mapping mobile broadband coverage is difficult 
because there are many factors such as terrain, foliage, 
spectrum, and equipment deployed that affect how far a radio 
signal travels and the signal quality a consumer actually 
experiences on the ground. We believe the primary issue with 
the FCC's one-time data collection for wireless is that some of 
the key standards adopted were inconsistent with how carriers 
actually design and operate their networks.
    For U.S. Cellular, the Mobility Fund II challenge process 
was an all but impossible task. Our challenges are documented 
in a YouTube video that is referenced in my written testimony. 
I have also attached to my written testimony example maps 
demonstrating the abysmal results we found during drive testing 
across this country.
    My company invested over $2 million to bring those 
challenges. We exhausted that budget. We ran out of time. We 
succeeded in testing only a small fraction of the areas that we 
believed to be inaccurate. To its credit, the FCC heard the 
widespread complaints and late last year they thankfully 
suspended that challenge process to review carrier submissions 
and to consider next steps.
    We are at a critical moment in time. Everyone agrees that 
the maps are not good enough to conduct an auction. The 
Broadband DATA Act will significantly improve broadband mapping 
for mobile services by mandating standards that reflect how 
wireless carriers actually engineer their networks today in 
rural America. For example, the FCC's one-time data collection 
used a cell edge probability of 80 percent and a cell loading 
factor of 30 percent. Consistent with how we actually engineer 
our networks today, this legislation would properly direct the 
use of stronger factors. Ninety percent at the cell edge 
probability and a 50 percent cell loading factor, reflective of 
how busy the network actually is in a rural area.
    By passing this legislation, Congress will also 
significantly improve the challenge process. For a challenge 
process to be effective, the areas of controversy should be 
small so that the task of bringing challenges is actually 
manageable for carriers and for the American public and so that 
people believe that actually taking the time to participate is 
worthwhile.
    In closing, we must get this right because 10 years' worth 
of Federal Universal Service funding is riding on this map. In 
the fixed broadband world that is over $20 billion. In the 
mobile broadband world, it is another $4\1/2\ billion. Every 
study indicates that it is going to take significantly more 
than $25 billion to achieve high-quality fixed and mobile 
broadband throughout our Nation and that doesn't even begin to 
account for the costs of rolling out 5G. We can't afford to 
waste even a single dollar.
    This committee should adopt the Broadband DATA Act and the 
related legislation before it today so that we can get on with 
the task at hand. Step one is fixing the maps and we begin that 
process here today. Step two is even more significant; that is 
actually filling in those maps. That is a broader challenge and 
we look forward to working with the committee on that next. 
Thank you.
    [The prepared statement of Mr. Spellmeyer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Doyle. Thank you.
    Ms. Floberg, you have 5 minutes.

                  STATEMENT OF DANA J. FLOBERG

    Ms. Floberg. Chairman Doyle, Ranking Members Latta and 
Walden, and subcommittee members, thank you for inviting me to 
testify. I am here today representing Free Press Action, a 
nonpartisan nonprofit with 1.4 million members.
    Every community deserves the benefits of a robust, 
affordable broadband connection and better broadband maps are 
part of getting there, yet they aren't all we need to close the 
digital divide. We support H.R. 4229, the Broadband DATA Act, 
and H.R. 4227, the MAPS Act, which improve the FCC's National 
Broadband Map and the underlying Form 477 data by making it 
more granular.
    There are indeed opportunities to improve that data, though 
the existing errors on wired broadband may be significantly 
smaller than some stakeholders fear. In Virginia and Missouri, 
CostQuest pilot found that a few hundred thousand additional 
households might be unserved at what the FCC defines as 
broadband speed. If we extrapolate that nationwide that could 
mean potentially eight to nineteen million additional unserved 
people. That is certainly an issue worth fixing, but the number 
is far lower than some have speculated. Still there are some 
key areas where wired deployment data could be improved.
    Mobile maps on the other hand seem to deserve all the 
criticism they get. Accurately assessing how a signal will 
propagate presents unique challenges that can lead to widely 
overstated wireless maps. We are optimistic about this 
legislation's proposals to improve the granularity and accuracy 
of both mobile and wired deployment data.
    As we improve our broadband maps, however, we must not 
sacrifice transparency. Both Congress and the Commission have 
long recognized the value of ensuring public availability of 
not just our broadband maps but also the underlying data. Free 
Press and others have made extensive use of this data recently 
shining a light on massive overreporting by a single small ISP. 
This illustrates the value of keeping deployment information 
publicly available.
    And for a new challenge process to have any true corrective 
power, outside parties must have access to this data. The 
Broadband DATA Act goes a long way towards this goal, though we 
would welcome amendments to clarify that deployment data should 
not be considered confidential.
    But improving the accuracy of broadband deployment maps 
should not be the sole preoccupation of this subcommittee. At 
their best, maps are useful because they help us get where we 
are going. The National Broadband Map is meant to chart a 
course for policymakers to close the digital divide. Federal 
policy here has centered around people who can't subscribe to 
broadband because it is not available where they live. But the 
divide actually extends far beyond these completely unserved 
communities.
    Millions more people live in an area where broadband at the 
FCC speed threshold is already deployed, yet they can't afford 
to subscribe. In fact, only 42 percent of households making 
less than $20,000 a year subscribe to wired home internet 
compared to 82 percent of households with incomes above 
$100,000. So even if these bills resulted in completely error-
free maps and even if those maps enabled complete national 
broadband deployment, the digital divide would persist.
    When it comes to broadband dreams, if you build it, they 
will come, just isn't true. It is more like if you build it, 
they will come, but only if they can afford to pay the price. 
When families are forced to forego necessities like diapers and 
food so they can afford to keep paying their internet bill, 
when students are forced to research and write essays on mobile 
phones because their parents can't afford a fixed connection, 
when the unemployed are forced to hunt for jobs without the aid 
of broadband because the price is just too high, we have an 
affordability problem.
    Discrimination also plays a key role. At every income 
level, people of color are less likely to adopt broadband than 
their white counterparts. Taken together, there is strong 
evidence that lack of affordability, lack of competition, and 
racial discrimination are keeping people offline. Better maps 
will help target public investments to improve broadband 
deployment and that is good. But your unserved constituents 
can't use on-ramps to a digital superhighway they can't afford 
to ride.
    That is why while we support the bills in today's hearing, 
we urge this subcommittee to see them as a stepping stone. 
Improving the National Broadband Map is valuable so long as 
policymakers stay true to the principle of ensuring publicly 
available deployment data and remember that the digital divide 
is much broader than maps or deployment alone.
    Thank you.
    [The prepared statement of Ms. Floberg follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Doyle. Thank you.
    Mr. Spalter, you have 5 minutes.

                 STATEMENT OF JONATHAN SPALTER

    Mr. Spalter. Well, thank you, Chairman Doyle and Ranking 
Member Latta and other distinguished members of this committee. 
Thank you for the opportunity to appear before you on behalf of 
the members of USTelecom, large and small, who collectively 
invest--who have invested far more and for far longer than any 
other sector to connect rural America.
    Today's hearing is appropriately focused on one of the most 
critical questions before our country: Will every person in 
this Nation have access to the foundation of the 21st century 
American dream? Bridging the digital divide is not a partisan 
issue, this is an American opportunity. And we are at a pivotal 
moment where we have the tools ready and the bipartisan will to 
ensure that we can identify and connect the unconnected 
quickly, efficiently, and accurately.
    We convene today to focus on one of the biggest barriers to 
achieving our goal, the fact that our Nation still lacks a 
single map that can accurately identify every home and business 
that is currently unserved. If we can't see it, we can't fix 
it. And that is why USTelecom launched the Broadband Mapping 
Initiative and its proof of concept pilot program to show its 
costs and benefits. We all understand the severe limitations of 
the ``one served, all served'' census block approach that still 
guides Federal investments in achieving universal broadband 
service. In the past it did serve an important purpose helping 
public-private efforts increase rural connectivity by more than 
70 percent in the last decade.
    But we have reached a plateau. The good news is that with 
the advent of new data sources and processing capabilities and 
the bipartisan support here in Congress and at the FCC, we can 
now quickly and affordably account for every single served and 
unserved location in the Nation and deliver near 20/20 vision 
on the challenge before us.
    Our mapping initiative brought together a diverse group of 
partners who stepped up to the plate to forge a lasting 
solution. We launched the pilot program in April. Our goal was 
focused to identify the precise number and location of every 
broadband serviceable location in the pilot States and 
demonstrate the ability to scale the approach nationally using 
modern data sources and with that foundation demonstrate how 
providers can report broadband availability on top of that 
foundational dataset, shapefile or otherwise.
    It is now complete and the findings are crystal clear. Yes, 
we can quickly and affordably map the gap and with a degree of 
accuracy that makes the census block or shapefile only 
approaches look like Pin the Tail on the Donkey. Equally 
important, we can take this step concurrent with any new 
broadband support programs such as the FCC's potentially game-
changing $20 billion Rural Digital Opportunity Fund, in a 
manner that need not delay; indeed, would likely accelerate our 
ability to finally and truly connect every part of our Nation.
    This is a once-in-a-generation leap forward in identifying 
the availability of broadband. We conducted the pilot in 
Virginia and Missouri. We are now happy to be working with the 
FCC and you to scale our approach nationwide, producing a 
visibility into our country that no regulator or provider has 
ever seen before. And our findings underscore the urgency of 
this work, identifying a margin of error as high as 38 percent 
under today's approaches. That is up to 445,000 homes marked 
served that could in fact be unserved in our two pilot States 
alone.
    To argue that we need to choose between speed and 
allocating scarce Federal dollars based only on existing 
reporting approaches and accuracy in the form of better maps 
later is a false choice. Our pilot proves we can do both, be 
quick and be accurate. That is one of the reasons why USTelecom 
strongly supports the bipartisan Broadband DATA Act and the 
MAPS Act that mandates the proper ready-aim-fire sequencing of 
mapping the gap and then targeting finite Federal resources 
with a precision that has not been possible to date. 
Critically, the legislation wisely pairs more granular 
reporting on the one hand with more precise location 
identification to close the digital divide once and for all.
    Today should be a galvanizing moment. A unifying and 
bipartisan sense of determination combined with innovative new 
data capabilities put victory at long last within reach. But as 
we approach the finish line, we cannot back down a single step 
on how we define the win. Creating a complete database of all 
broadband serviceable locations will provide policymakers a 
necessary picture of where scarce taxpayer dollars should be 
targeted and allow providers the best opportunity to invest 
those resources officially and with greatest impact increasing 
speed and minimizing waste. Most importantly, this new mapping 
approach directed in the legislation before us today will 
render visible and thus reachable the unseen and the unserved.
    So thank you again for calling on us to raise our sights 
and raise the bar when it comes to connecting all Americans. I 
am really happy to take your questions.
    [The prepared statement of Mr. Spalter follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Doyle. Thank you very much.
    Mr. Stegeman, you are now recognized for 5 minutes.

                 STATEMENT OF JAMES W. STEGEMAN

    Mr. Stegeman. Thank you. Good morning, Chairman Doyle, 
Ranking Member Latta, and members of the subcommittee. My name 
is James Stegeman. I am president of CostQuest Associates, and 
it is an honor to be here again to discuss the status of 
broadband in this country.
    For the last 20 years, CostQuest has taken pride in 
empowering the public and private sector with the ability to 
make data-driven decisions with their most critical resources 
and we seek to do the same for broadband mapping. While 
CostQuest is known for its cost expertise, the integration of 
geospatial design and data forms the underpinning of all our 
studies, analysis, and models. As for my own experience, I am a 
statistician by trade. And as Hal Varian, chief economist at 
Google said in 2009, the sexy job in 10 years will be 
statisticians. As you listen to my testimony today, 2019, I 
will let you decide if Hal was right. Now let me jump to the 
heart of my testimony.
    A coalition of leading broadband innovators launched the 
Broadband Mapping Initiative in April of 2019 to demonstrate 
the feasibility of identifying the precise number and locations 
of structures that require broadband access in Missouri and 
Virginia. The resulting dataset known as the Broadband 
Serviceable Location Fabric makes it possible to precisely map 
and understand where broadband is available and more 
importantly where it isn't.
    Let me first walk through what the fabric represents. The 
fabric is based upon parcel data, tax assessor data, building 
polygons, addresses, and roads. Combined through our unique 
geospatial process, we were able to identify the broadband 
serviceable location on the vast majority of parcels. Where the 
data were inconclusive, we sent records, 140,000 in total, out 
to our partner firm at CrowdReason who managed a visual review 
using a crowd labor pool.
    Now, let me share some of our key findings. First, the 
pilot was a success. Developing the fabric for two States 
showed it can be done for the entire country.
    Second, we can identify the unserved. For rural census 
blocks in Missouri and Virginia that are considered served by 
the current 477 guidelines, we found that 38 percent of those 
locations were not reported as served by the carriers in the 
study. This amounts to 445,000 homes and businesses.
    Third, we found that location counts differ. The fabric 
revealed that 48 percent of the location counts in rural census 
blocks are different from current estimates used by the FCC. 
This is meaningful when assessing the scope of the unserved 
problem, determining build-out requirements, and ultimately how 
much budget is needed to remedy.
    Fourth, we found that the current datasets conflict with 
the fabric. In our pilot, census blocks identified for an 
address were different 28 percent of the time when comparing 
the provider submitted location versus the fabric location. 
Under today's 477, this could impact which census blocks are 
reported. And, finally, reporting is enhanced. Regardless of 
how the new FCC coverage reporting format is set up, the 
quality and validity of the reporting will be improved using 
location-specific data.
    Now let me show you some slides of what the fabric reveals.
    [Slides shown.]
    In image 1, shown on the screen, I highlight what are 
current 477-based understanding of broadband coverage would 
look like in ten populated census blocks in rural Missouri. 
Using the pilot's providers data, all the census blocks shaded 
in blue would be reported as served. This is the extent of our 
knowledge today. Nothing more, nothing less. We do not know if 
all customers in the census blocks are served or if it is only 
one.
    In image 2, I demonstrate what polygons might look like 
under the FCC's proposed coverage efforts where carriers will 
file polygons that represent where they provide service. In 
this image, my team created hypothetical polygons, the light-
blue bounded areas, based on carrier-provided latitude and 
longitude coordinates. This is one approach to polygon 
creation. There are others, some of which can be found in 
Appendix D of my testimony.
    In image 3, using the fabric I am now able to reveal within 
these ten census blocks the extent of served locations, the 
green dots and, more importantly, the unserved locations, the 
red dots. Of all the benefits of the fabric, to me this most 
clearly demonstrates why the fabric is needed. Specifically, 
polygon reported, as I showed in the previous image, will only 
improve our knowledge of what the served areas look like. The 
fabric is needed to then provide knowledge of the unserved 
locations.
    In regard to next steps, can this fabric be generated 
nationally? Unequivocally, yes. How much time will it take? We 
estimate that, starting from where the pilot left off, it 
should take no more than 5 to 8 months to stand up an initial 
national fabric for testing, and 12 to 15 months to fully 
complete. And what will it cost? I estimate the initial cost to 
be between 8\1/2\ and 11 million dollars for a restricted-use 
dataset.
    That concludes my testimony. Thank you for your time. And I 
would encourage you to see more in my written testimony for 
additional details.\1\
---------------------------------------------------------------------------
    \1\ Mr. Stegeman's prepared statement and additional material 
submitted for the record have been retained in committee files and also 
are available at https://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=109914.
---------------------------------------------------------------------------
    Mr. Doyle. Thank you very much. That concluded our 
openings. We are now going to move to Member questions. Each 
Member will have 5 minutes to ask questions of our witnesses, 
and I will start by recognizing myself for 5 minutes.
    So, Ms. Floberg, tell me why is it so important that 
broadband coverage data be accessible to the public and be 
challengeable by third parties such as your organization?
    Ms. Floberg. Thank you, Mr. Chairman.
    I think that we have seen and we have heard today a lot 
about the importance of ensuring that there is a check on 
whatever mapping system we implement, some ability for the 
public, for researchers to be able to look at the underlying 
data and say this reflects reality or this does not reflect 
reality. This is something that Free Press has done even very 
recently.
    We found an error in the FCC's Form 477 data where small 
ISP called BarrierFree had mistakenly reported serving 20 
percent of the U.S. population with fiber to the home speeds in 
less than 6 months' time. In reality, they served a much, much 
smaller percentage of the population and that error actually 
threw off the FCC's entire analysis of how much broadband had 
been deployed, how much fiber had been deployed in that past 6 
months.
    So making sure that that data is available for 
organizations such as Free Press, but also for members of the 
public to say the map says I am served by this many providers; 
that I am served by these speed tiers and I am not, is really, 
really important.
    Mr. Doyle. Thank you.
     Mr. Stegeman, it is very interesting testimony. We know 
the FCC currently has about $20 billion for Universal Service 
programs that has not been awarded and then it is going to be 
used to fund a broadband buildout over the next 10 years. So 
let me--I don't know if it is possible, but you were able to do 
pilots on two States, Virginia and Missouri. And it may be a 
reach, but if you extrapolated your findings in those two 
States to the rest of the country, who across the country would 
be left behind if the FCC didn't look before it leaped over the 
next 10 years of broadband deployment?
    Mr. Stegeman. Thank you for that question. In our study in 
Missouri and Virginia, we were able to unveil or reveal that 
there are unserved locations in what people considered served 
census blocks before. We were also able to identify that if 
carriers use address tools to identify which census blocks the 
report has served, those census blocks may be incorrect that 
they identify.
    So what we found in the study is that there is an 
underreporting of the unserved issue in the country, and there 
are many studies out there. I think Dr. George Ford put out a 
study that I think he estimated the unserved at potentially 
four million. We have seen estimates as high as in the ten 
millions. It is hard for me to project forward for the Nation, 
but I know it is in the millions. I just don't know the exact 
count at this time.
    Mr. Doyle. Thank you very much. You know, there has been a 
lot of discussion about how overstated and unreliable coverage 
maps hurt rural areas, but I don't have to drive very far 
outside of Pittsburgh before I experience dead zones and 
despite the map saying that I am covered.
    Mr. Spellmeyer, how does this issue affect consumers in 
urban and suburban areas as well as rural areas?
    Mr. Spellmeyer. Well, Mr. Chairman, it is certainly an 
issue, I think, for all Americans. You know, you can get in 
your car right here and drive 5 miles to the Potomac River, and 
there are some areas along there that you don't want to end up 
in trouble because there is no cell phone coverage and you 
can't stop to figure out, oh gee, which carrier's phone do I 
need to take along on my trip to Rock Creek Park.
    So we have got to fix it. I traveled down Highway 1 in 
California this year. I was shocked to see the expansive 
stretches where there is no coverage. The same thing is true--I 
have been to Weston, Oregon, that Chairman Walden mentioned 
earlier. We have got to fix it both for the people in the rural 
areas and the people that get in their car and drive 10 miles.
    Mr. Doyle. Yes, thank you very much. Boy, I will tell you 
we have been talking about this issue for as long as I can 
remember. Ms. Eshoo told me we have been talking about this 
since they made the very first maps when the Earth was flat. 
And it seems to me that we have got to get moving on this. I 
want to thank you all for your questions, your testimony.
    So the Chair is now going to recognize Mr. Latta, the 
subcommittee ranking member for 5 minutes to ask questions.
    Mr. Latta. Well, thank you, Mr. Chairman. And thank you 
very much to our witnesses. And that is a long time for those 
maps, but that is why we are here today and, really, we thank 
you all for your testimony.
    Mr. Spalter, if I could start with you. USTelecom's fabric 
building pilot appears to have been a productive start to 
identify which locations in rural areas need broadband and show 
gaps in the current data collection process. Building on that 
experience, I want to focus on where the rubber meets the road.
    Would you walk us through the expected timeline under your 
proposal from updating the collection of data for the broadband 
map to actually using the data to more accurately guide the 
Universal Service funding?
    Mr. Spalter. Thanks for that great question. As Mr. 
Stegeman pointed out, it is possible to have a fully nationally 
realized, scalable, universal, harmonized, deduplicated map in 
12 to 15 months. His estimates, and I think they are accurate 
in his project management capacity, that we can actually even 
deploy maps sooner than that, that will be scalable and usable.
    The important point, Congressman, is that once we actually 
can put pen down on this map and we can do it quickly, that can 
become the basis for guiding any new dollars going out the door 
for any broadband support program, including the Rural Digital 
Opportunity Fund, to ensure that every taxpayer dollar is being 
used to its best and highest purpose as accurately as possible 
to reach the truly unserved in this country. This is attainable 
and we can do it.
    Mr. Latta. Thank you.
    If I could follow up, Mr. Assey, if I could ask you, when 
it comes to the actual data used to create the map, how helpful 
are the quality of service metrics in shaping our picture of 
broadband availability driving the funding decisions these maps 
are designed to determine?
    Mr. Assey. Congressman, thank you for the question. The 
broadband map is a map that reflects coverage, so it is really 
aimed at focusing where networks are and where they are not. 
The quality of service, really, I think only relates to the 
speed tiers and the data requests that the FCC makes, so it is 
really kind of a separate issue. And one of the reasons we are 
so focused on the shapefile portion of improving the map is 
because we believe that will offer the quickest improvement on 
a national scale in the quickest amount of time.
    Mr. Latta. Thank you.
    Mr. Spellmeyer, how can Congress ensure that there is a 
meaningful challenge process to validate data while also 
protecting the proprietary data that providers and third-party 
vendors and consumers may supply through a commission-developed 
process to inform on the map?
    Mr. Spellmeyer. Congressman, your legislation and much of 
the legislation in front of us today outlines some stronger 
parameters for how the FCC would run a challenge process at 
least on the wireless side. We think that is needed.
    In terms of confidentiality of data, there are certain 
inputs to a wireless map that may be confidential, but beyond 
that I believe it is actually important that the public see the 
map and understand what the maps look like. One of the biggest 
mistakes the FCC made last time was not to allow the American 
public to participate in the challenge process. This 
legislation gets that right, but it is really hard for a 
consumer to go out and participate in the challenge process if 
they don't understand who is claiming coverage where.
    So I think it is essential that we make sure that that 
information gets out to the public while protecting--there are 
certain proprietary inputs like the, you know, the height on a 
tower where someone has got a particular antenna that you might 
want to keep confidential, but beyond that the rest of it 
should come forward.
    Mr. Latta. OK, thank you.
    Mr. Assey, how do shapefiles from different providers 
factor into this endeavor and what is the benefit?
    Mr. Assey. Well, the benefit is, you know, we are currently 
living with a system that is not based upon how providers 
actually build their networks. We are essentially retrofitting 
data into a census block map. Shapefiles will allow providers 
to actually draw the shape and the contours of where they offer 
service.
    And whether or not you are a cable provider or a fixed 
wireless provider or a telco, you will be able to provide that 
data and essentially layer it on top of the national map so 
that we can actually identify in a more granular way those 
places that are being served with broadband today and we can, 
more importantly, identify those places that are yet to get 
service.
    Mr. Latta. Well, thank you very much.
    Mr. Chairman, thanks very much for today's hearing, thanks 
to our witnesses, and I yield back.
    Mr. Doyle. The gentleman yields back. The Chair now 
recognizes Mr. McNerney for 5 minutes.
    Mr. McNerney. Well, I thank the chairman and I thank the 
witnesses. Very informative, kind of exciting testimony this 
morning, so I am looking forward to seeing progress on this 
issue. In my district I know there are wide areas that are--we 
just don't have enough data to know if people are being served 
and in fact I know people that aren't served, so this is an 
important issue.
    Ms. Bloomfield, in your testimony you discussed the 
importance of the challenge process and crowdsourcing, I am 
kind of following up on Mr. Latta. Could you tell us more about 
how these methods will help obtain reliable results? Just 
explain the process a little bit.
    Ms. Bloomfield. Sure, absolutely, and I appreciate the 
question. So, you know, with the better mapping, you know, if 
you start with the shapefiles that the FCC has talked about, 
you will start to get more granular data so we will be able to 
start to see a better picture. But remembering it is still 
self-reported, you know, so how do you make sure that you are 
validating what people are reporting?
    So if a carrier is reporting something, what we want to 
know is on the ground that is what is really happening. So that 
is the advantage of things like crowdsourcing where you can 
basically allow consumers on the ground to get some feedback 
and say yes, we are seeing this or we are not seeing this. The 
one thing I could caution again is, you know, if you asked me 
today what speed I am getting at my house, I am not sure I 
could give you the answer.
    So I think it is the ability to whoever is handling that 
information to see what trends, where are you seeing spaces 
really bright up that there clearly are problems, there clearly 
are issues. So again, it is that ability to take that accuracy 
and make sure that we can also be granular at the same time.
    Mr. McNerney. Thank you.
    Ms. Floberg, in your testimony you raise the issue of 
compatibility with historical 477 data. Can you elaborate on 
that and its importance? Do you have any recommendations that 
would follow?
    Ms. Floberg. Sure. Thank you so much for that question. We 
do believe that it is really important to make sure that even 
as we make the maps more granular and more accurate that we 
preserve the ability to compare new deployment data to the old 
deployment data so that we can see trends where they are 
happening. This also gives us the opportunity to compare 
deployment data with granular data from the Census Bureau about 
demographics to figure out who is being served and who isn't 
being served.
    So maintaining some ability to not just have this granular 
data about who is unserved, but to still be able to aggregate 
that to the census block level will preserve an abundance of 
rich analysis that we can move forward with. I think the 
Broadband DATA Act does have some great language about that 
about ensuring backwards compatibility, so really it just comes 
down to making sure that that data is available to the public 
and available in a way that it is easy to make those 
comparisons and do that analysis.
    Mr. McNerney. Is there also a thing about how trends, what 
the trends are, or is that like too far in the future for now 
what the trends in terms of coverage is?
    Ms. Floberg. I think that definitely maintaining that 
compatibility is how we would be able to see trends. It would 
also be a way to see how these new more granular sets of data 
have potentially improved, how we keep track of who is unserved 
and who isn't. It would give us, I think, the ability to see 
much better trends in deployment as we move forward with better 
maps.
    Mr. McNerney. Thank you.
    Mr. Stegeman, we have heard about the importance of making 
broadband mapping data publicly available. I want to make sure 
that the data being collected will also be accessible and 
usable by households, small businesses, and local governments 
across my district in particular. Do you foresee any challenges 
in making that possible?
    Mr. Stegeman. There are challenges in creating the fabric 
dataset. If we go a proprietary route we can get to the answer, 
but quicker with less money because the data quality is better. 
The proprietary route doesn't mean it is not viewable by the 
public. What the proprietary data means is it is restricted in 
use that someone cannot download the entire country of all the 
data. They can't download full States, but it is usable by 
companies, by the public to do that.
    The alternative route is to use kind of an open dataset, 
open source datasets that are out there that we can initiate 
the process. We actually did that in Missouri to see how well 
it would work. It will work, but it will require additional 
visual verification because the records will not match in sync 
as well as the proprietary data. That public, open dataset can 
be released and used by the public the same as the proprietary 
but it would have less restrictions on use.
    Mr. McNerney. Well, I just--I am going to have to close 
here or I am going to be gaveled out.
    But, Mr. Stegeman and Mr. Spalter, you made it sound like 
creating these maps as accurate, granular, and with low latency 
is something that we can actually achieve in a fairly short 
time, so I hope you are right.
    Mr. Spalter. I am confident that we are.
    Mr. Doyle. The gentleman yields back. The Chair now 
recognizes my friend, Mr. Olson, for 5 minutes.
    Mr. Olson. I thank the chair and welcome our six witnesses. 
I would like to start out with a point of personal privilege. 
Everybody here that September 11th is not just a day to 
remember what happened 18 years ago in New York, in DC, and 
Pennsylvania; 7 years ago in Benghazi, four Americans were 
killed, Ambassador Smith and three others, they were overrun by 
terrorists. So, please, later today, pray for their lives as 
well as lives that were lost here, in New York, and 
Pennsylvania on 9/11.
    Now I got to open by saying Texas 22 is a big suburb. We 
have a lot of broadband access; that is not our problem. But my 
State is huge, and Texas has some real issues that you guys 
have brought up. For example, Mr. Hurd is not here, Will Hurd, 
but he has one county called Loving County, has one small town, 
population of 134 people. I guarantee you if one person on that 
map has access or reports access, the whole city has access and 
that is just not true.
    So my questions come from my role as the cochair of the 
House Artificial Intelligence Caucus, the AI Caucus. I am a 
cochair with Dr. McNerney over there. And Form 477, the primary 
source the FCC uses to assess access for broadband, et cetera, 
et cetera, has some real problems that you all brought up 
today. I mean there are false positives, coverage when there is 
not coverage, the maps, et cetera, et cetera.
    I would like to ask you all to put on your thinking caps 
and put on that AI cap. How can AI help resolve these problems 
you have going forward?
    Ms. Bloomfield, you are up first, ma'am. Any ideas?
    Ms. Bloomfield. I knew that was going to be the downside of 
sitting here, right?
    So I think, you know, when you think about AI and you think 
about applications, for example, I have a company down on the 
border of Mexico that is in Texas that actually uses a lot of 
AI and drone technology to do border security. So thinking 
about, you know, first of all, you have to have the access and 
then you have got to think about what are the applications that 
you can enable particularly in an area where you have got a 
wide swath of land.
    So I think there is--I think we are just starting to 
explore. Thankfully, this isn't a privacy hearing, but I think 
there are a lot of different applications. But first, you have 
to have the connectivity to be enable the cool things that you 
want to be able to do.
    Mr. Olson. Thank you.
    Mr. Assey?
    Mr. Assey. Yes, Congressman. I think technology, whether it 
is AI or other technology, certainly plays a large role in 
helping us fill the gaps and provide service to unserved 
America whether that is through the technology that cable 
companies offer or the technology that other broadband 
providers offer. But first thing we have to do is really get 
that accurate picture of what we are up against and what the 
challenges of geography and low density are providing.
    Mr. Olson. I think AI can help with that.
    And, Mr. Spellmeyer, for the mobile phones, how about AI?
    Mr. Spellmeyer. Well, Congressman, I am no artificial 
intelligence expert, but--and I don't know that we need to get 
to artificial intelligence. But as I sit here reflecting on the 
wireless side, I think there are already several players out 
there in the ecosystem that have an awful lot of data, 
actually, about coverage and those companies that come to mind 
are Apple and Google. They track a significant amount that goes 
on up and down on every handset, every day. They know that I am 
sitting here on the third floor of the Rayburn Building right 
now. And we should try to find ways to leverage that down the 
road to improve coverage data.
    Mr. Olson. Thank you.
    Ms. Floberg?
    Ms. Floberg. I don't think we can suggest any particular AI 
applications, but I do think that making sure that the 
underlying deployment data is publicly available will make sure 
that others can think of what those innovative ideas might be.
    Mr. Olson. Perfect. Thank you.
    Mr. Spalter?
    Mr. Spalter. One of the critical issues about the 
deployment of AI in the future is that it will be enabled and 
enhanced and turbocharged when we actually can deploy 
nationally 5G technologies. And for too long, 5G technologies 
have been considered to be the province only of our urban and 
suburban residents and enterprises.
    If we can map broadband accurately, granularly, with the 
process and methodology we are suggesting, pinpointing where 
there is, in fact, unserved locations and couple that with 
other reporting technologies and provide that to programs like 
the Rural Digital Opportunity Fund, that will mean we will be 
able to pull fiber to places like your communities in Mr. 
Hurd's district and your district that then can use fiber-
enabled resources to empower rural communities from benefiting 
from 5G, and with 5G use the cloud scale algorithms, machine 
learning, and other data processes that are enabled and will 
enable artificial intelligence applications for health care, 
for education, from advanced manufacturing, for all kinds of 
things.
    But we have to start with accurate mapping and that is why 
we have stood up our pilot program and wanted to be integrated 
into the Rural Digital Opportunity Fund.
    Mr. Olson. Thank you.
    Mr. Stegeman?
    Mr. Stegeman. Yes, I am excited to say that we actually use 
machine learning and artificial intelligence on the fabric. If 
you think about it, we will have over a terabyte worth of data, 
170 million building locations, 150 million parcels and trying 
to weed through that information intelligently it will be a 
struggle. And we have incorporated machine learning and other 
efforts to actually be able to do that successfully.
    Mr. Olson. And that is why I saved you for last.
    Mr. Chairman, I yield back.
    Mr. Doyle. The gentleman yields back. The Chair now 
recognizes the chairman of the full committee, Mr. Pallone, for 
5 minutes.
    Mr. Pallone. Thank you, Chairman Doyle.
     Since Superstorm Sandy ravaged my district, I have been 
very focused on network resiliency. And I know there are so 
many uses for granular broadband data, but building a national 
location fabric could be quite helpful in disaster response.
    Mr. Floberg, what do you think about that if I could ask 
you? Ms. Floberg, I am sorry.
    Ms. Floberg. That is quite all right. I think that there is 
definitely potential here. The kind of fabric that we have 
heard CostQuest and others describe could potentially be very 
useful for making sure that we have the best and most accurate 
data about when there are these outages in response to natural 
disasters; where people are experiencing those outages; where 
folks are who might need help; who might need resources 
directed by our disaster response.
    How we do that and how we ensure that we get the 
appropriate data from carriers about where those outages are 
and where there are problems with network resiliency that need 
to be resolved, I think, is an open question, but we can 
certainly see the potential in having that kind of granular 
data about where folks are who are going to need assistance.
    Mr. Pallone. Thank you.
    And, Mr. Spellmeyer, do you think better wireless maps will 
be useful for public safety in the wake of disasters?
    Mr. Spellmeyer. I do, Mr. Chairman. Without that 
information you are flying blind. The wireless industry works 
pretty hard in advance of and during disasters to try to stay 
on top of outages and to communicate with public safety. And we 
have made that as an industry an even greater priority since 
Hurricane Sandy, thanks to your leadership.
    You know, we know instantly because of remote monitoring 
when a cell tower goes down. And if we are in a hurricane 
situation, we have an obligation to report that to the FCC that 
same day. And we do that and we try to regularly communicate 
with public safety to leverage that information, but certainly 
continuing to improve these maps and to make sure that 
everybody understands who claims to have coverage where will 
help.
    Mr. Pallone. Well, thanks.
    I think the committee should be very proud of the bills 
before us today. And in particular I believe that including 
metrics for quality of service is a valuable addition. And once 
this legislation passes, I hope we can build on the progress we 
have made to give consumers more insight into the quality of 
the service that broadband providers offer.
    But if I could just ask the entire panel, just a yes or no, 
would each of you commit to working with the committee to build 
on the concept of quality of service with the aim of helping to 
better inform consumers? And again, a simple yes or no, if I 
could start with Ms. Bloomfield.
    Ms. Bloomfield. Absolutely.
    Mr. Pallone. Mr. Assey?
    Mr. Assey. Yes.
    Mr. Spellmeyer. Yes.
    Ms. Floberg. Absolutely.
    Mr. Spalter. One hundred percent.
    Mr. Stegeman. We would love to.
    Mr. Pallone. All right, thank you.
    Now let me go back to Ms. Floberg. Significantly, in your 
written testimony you note that the data that goes into the 
FCC's broadband maps needs to be publicly available and I 
agree. In my opinion, this data must be available for 
researchers who can double check the FCC's analysis, local 
governments who can check the accuracy of the data, and for 
consumers who can use it to understand better what is 
available.
    So, Ms. Floberg, from your perspective, considering all 
Free Press' analysis of broadband deployment data, what would 
happen if the FCC kept this information to itself?
    Ms. Floberg. Well, I think, first and foremost, it would 
absolutely throw a wrench in the works for having any sort of 
functional challenge process to get a sense of whether or not 
the data that is being reported from carriers is accurate, but 
I think it would also have tremendous other impacts. Free Press 
has used the deployment data to assess where there are racial 
disparities in broadband deployment. That would be much more 
difficult without that kind of deployment information. We have 
also used it to assess the accuracy of claims about investments 
stalling out in the wake of the 2015 Open Internet Order.
    So there are all sorts of different kinds of analysis 
related to broadband deployment that would become much, much 
more difficult for researchers as well as for members of the 
public simply to gauge whether or not the maps are correct that 
they have service or that they don't have service.
    Mr. Pallone. Thank you.
    And then my last question is, Mr. Spalter, I also know 
quickly fixing the FCC's maps is important. Do you think H.R. 
4229 strikes the right balance in that regard?
    Mr. Spalter. We do. And we commend this body and this 
legislation in particular for advancing three principles. One 
is that we actually need to prioritize mapping as part of any 
effort to move forward in accurately determining where unserved 
American residences and enterprises are. Second, that there is 
a need for speed in doing so. And third, that it provides 
bidders, providers, ultimately, who will be seeking these 
resources to deliver these services the ability to do so with 
pinpoint accuracy, limiting the risk that we are wasting 
taxpayer dollars, and speeding up our efforts to actually 
deploy broadband to unserved Americans so that we can close the 
digital divide once and for all.
    Mr. Pallone. I thank you. Thank you, Mr. Chairman.
    Mr. Doyle. The gentleman yields back. The Chair now 
recognizes Mr. Kinzinger for 5 minutes.
    Mr. Kinzinger. Thank you, Mr. Chairman. Thanks to you all 
for being here.
    Accurate broadband mapping is incredibly important so that 
industry and government can work to provide internet service to 
un- and underserved areas. It has been one of the bigger goals 
of this committee and it is the only goal of the Rural 
Broadband Caucus in which I am proud to serve as a cochair. 
Billions of dollars have been invested by the government and 
industry alike and substantial improvements have been made, but 
there are too many Americans without adequate broadband 
service, and the fact that there are Americans here in 2019 
with no service at all is just beyond me.
    There is near-universal agreement that the current mapping 
methodology is outdated, to put it nicely. We have heard 
arguments today about not only the maps and the data, but the 
need for government to quickly disburse funds to continue the 
buildout. I just want to state that the speed at which funding 
goes out should be a goal, but it can't be the only goal. For 
what seems like forever now, government, industry, and Main 
Street have been complaining about the inaccuracy of broadband 
maps. Should we move quickly here? Yes, absolutely.
    But given the complexities of the issue and the 
difficulties striking the right balance, we may not have a 
similar opportunity to do this again for some time. So I would 
like to move quickly, but it is vital that we get it right so 
we aren't spending billions of dollars with no effective 
metrics or meaningful oversight. The most important goal must 
be to get service to those Americans that have never had it at 
their homes, their business, or their schools. There is a 
balance to be struck here and I am optimistic that we can find 
it.
    So, first question, for Mr. Spalter. It is encouraging the 
USTelecom received input from several wireline providers during 
its pilot program. It is clear, however, that more partnerships 
are needed from all fixed and wireless providers. How does 
USTelecom propose that industry could partner and coordinate in 
developing this data and would regularly help private industry 
working groups in coordination with policymakers factor into 
building that database?
    Mr. Spalter. We were very privileged and lucky that a 
number of innovative wireline providers stood up and stood tall 
to work with us in advancing this idea that we can deliver more 
accurate data not only of served broadband locations but 
unserved locations so that we could present to you and to the 
FCC and to any government agency the clarity that is required 
to guide our future broadband support programs.
    I am disappointed that not all wireline providers decided 
to join with us in our effort, particularly the cable industry; 
however, we know that there are some very utilizable datasets 
that we have available that are immediately available once we 
complete the map to deploy not only, finally, a National 
Broadband Map, but broadband support programs like the Rural 
Digital Opportunity Fund that will be effective.
    In terms of continued partnership, we want to work not only 
with all parts of government in a harmonized way, but we 
commend the legislation that is before this body to ensure that 
there is actually coordination amongst and between government 
agencies in utilizing maps, and we as an industry are very 
eager and ready to work with all parts of government from the 
FCC to the Commerce Department, the Agriculture Department, and 
beyond to advance these maps, including at the State and local 
level as well. This is all achievable.
    And we need to understand that if we are going to design 
and deploy effective broadband support programs, they need to 
have an undergirding, foundational dataset upon which all kinds 
of different reporting mechanisms, including shapefiles, can be 
added in order for us to get the job done of closing the 
digital divide.
    Mr. Kinzinger. Thank you.
    Mr. Assey, how do cable providers propose to combine 
efforts with the wireline and wireless industries to build on 
the recent pilot program?
    Mr. Assey. Well, I think, first and foremost, as I 
mentioned in my testimony, we are focused on delivering the 
shapefiles that are going to accurately show the places that 
are already served. The important thing when we are talking 
about serving unserved America relative to the fabric and the 
buildings that may exist in unserved America, that to me goes 
to how much it is going to cost to the would-be bidders to 
extend service there.
    So we believe that actually making progress and getting the 
shapefiles done, out there, and located on the map will give us 
a better sense of the area as we need to focus on and allow us 
to come up with new strategies to actually devote the scarce 
resources that we do have where they are most needed.
    Mr. Kinzinger. So from your perspective, does the fabric 
tell us which locations have access to broadband?
    Mr. Assey. The fabric doesn't. The shapefiles will tell us 
and the process that we are going to create to have providers 
actually demonstrate this is where we believe we can serve. And 
we have a verification process and a public crowdsourcing 
process to make sure that we get that right and then we can 
focus our energies on making sure we spend the dollars to hook 
up more people to broadband in unserved America.
    Mr. Kinzinger. Well, I have more questions. But time flies 
when you are having fun, so I yield back, Mr. Chairman. Thank 
you all.
    Mr. Doyle. The gentleman yields back. The Chair now 
recognizes Mr. Loebsack for 5 minutes.
    Mr. Loebsack. Thank you, Mr. Chair. And I do want to say 
again, thank you to Mr. Latta for helping on the bill that we 
are offering today. We have worked together really well. And I 
want to thank the Members who have been here longer than I have 
been. Some of the folks' names were mentioned already, too many 
for me to repeat. But I have only been on this committee now 
for 5 years. I am in my fifth year; I am still kind of a 
newbie.
     And I won't be here after this term any longer in the 
Congress, so there is a little urgency on my part to get this 
done before I get out of here so that the people in my 
district, people of Iowa, the people of the country can benefit 
from better maps. I have often said garbage in is garbage out 
and that is the way it has been in the past, unfortunately, the 
way these maps have been constructed and then the potential 
uses of those maps too.
    A couple of other quick points, Ms. Floberg, I want to 
thank you for talking about the affordability issue. That is 
really, really critical and I really appreciate that. And, you 
know, affordability is, we talk about a rural-urban divide and 
most of us are talking about rural access today. But 
affordability is not just a rural or urban issue, it is a 
national issue, and so thank you.
    And, Mr. Spalter, I hope you don't ever come to my State to 
run against any of my friends because you are awfully damn 
inspirational and thank you very much for your remarks today. 
Not to take away from anybody else, but this has really been a 
great panel, I have to say.
    I do want to just ask, first of all, Mr. Assey, a quick 
question about crowdsourcing, but before I do that, I have to 
repeat the experience that we have had in my district with 
Chariton Valley Electric Cooperative. They have missed out on 
getting funding for building out. They are an electric 
cooperative, but they wanted to build out broadband and the 
data indicated that there really wasn't any need for it and it 
was based on census data and what have you. Absolutely 
horrendous decision on the part of the FCC to deny them 
funding.
    If you would, Mr. Assey, I know that you have an interest 
in crowdsource data.
    Mr. Assey. Sure.
    Mr. Loebsack. Could you speak to that issue?
    Mr. Assey. Yes. I think crowdsourcing is a very interesting 
and innovative idea for us to improve the accuracy of the data 
that we are going to get it. Under the current mechanism for 
reporting it is basically a very binary choice, you are either 
providing service somewhere in the census block or you are not. 
But we are now going to move to a regime in which providers 
themselves are going to have to draw shapes that are going to 
outline where they can provide service and every point along 
that line, along the edge of that shape is potentially a 
contestable question.
    So we are going to do our dead level best and work in good 
faith to provide data that is accurate and complete, but 
obviously people who live there who have boots on the ground, 
they often know some things that we don't know here. So we 
really are going to have to work collaboratively to get this 
right.
    Mr. Loebsack. All right. Thank you so much. I appreciate 
that.
    Ms. Floberg, can you explain why knowing quality of service 
of available broadband is important for consumers? Can you talk 
about that a little bit?
    Ms. Floberg. Absolutely. I mean some of the quality of 
service metrics are necessary simply for making the maps in 
determining whether or not service in a particular area counts 
as broadband according to the FCC's speed threshold, which 
currently defines that as 25 megabits per second downstream and 
3 megabits per second upstream.
    Mr. Loebsack. Right.
    Ms. Floberg. We are encouraged to see that that is 
preserved in the Broadband DATA Act as well as the inclusion of 
latency which is useful especially for particular applications 
that consumers may want to use. And we think that there is a 
lot of benefit to additional quality of service metrics, usage 
limits, additionally possible pricing data, and we definitely 
appreciate that the language of this bill does not in any way 
prohibit the FCC from expanding on the definition and 
collecting data that it decides that it needs in the future.
    Mr. Loebsack. Thank you so much.
    Ms. Bloomfield, I have a related follow-up question for 
you. When mapping broadband why is it important to consider 
latency and not only speed?
    Ms. Bloomfield. Absolutely. So you think about the consumer 
experience, when we go online and the things we anticipate 
doing and the uses that we have. So when you think about 
latency, again, you know, you are in a rural community, you are 
using telehealth, you certainly don't want latency if somebody 
is actually doing any kind of procedure on you.
    So you think about or distance learning, you know, children 
actually using the technology in the classroom and what that 
jitter and that buffering does to that experience for those 
kids in the classroom. So again, they are all part of the 
consumer experience and they are not that difficult to gather 
that data as well, so it should absolutely be included.
    Mr. Loebsack. Thank you so much. And I do have a follow-up 
question I will submit for the record, if I may, Mr. Chairman, 
to Mr. Spellmeyer. Thank you.
    Mr. Doyle. Thank you. The gentleman's time is expired. The 
Chair now recognizes Mr. Johnson for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    Mr. Assey, the bills before us today all focus on solving 
the mapping challenge at the FCC, but for the last several 
appropriation cycles Congress has given NTIA money to fund a 
modernization of the National Broadband Map. So do you see an 
ongoing role for NTIA in the mapping context?
    Mr. Assey. Thank you for the question. I think all 
government agencies have a piece of this pie, whether it is 
NTIA, the FCC, or even the Department of Agriculture. And one 
of the things that is considered in this legislation that I 
think is extremely helpful is Congress' imprimatur and 
direction to the Federal agencies to really coordinate and work 
together. And the creation of a better map through the use of 
shapefiles will give us the background that we need to ensure 
that all of the agencies, no matter which corner of the Federal 
Government they are operating in, are operating off the same 
playbook.
    Mr. Johnson. Well, I am sure many of my colleagues are 
experiencing the same thing, especially those that live in 
rural areas when we go back home. You know, when I was first 
elected in 2010, one of the first things we started talking 
about in early 2011 was the need for an accurate broadband map. 
Here we are in 2019 and we are still talking about the need for 
an accurate broadband map. The American people are getting 
frustrated with the lack of progress on this. We have spent a 
lot of money to try and solve this problem.
    I agree with you that it is going to take all of us working 
together, but at the end of the day I am a mule farming 
plowboy, you know, and I think we need to go back to the basics 
and be simple. It ain't that tough to figure out who has got 
broadband and who doesn't have broadband. I can't believe it is 
this dadburn complicated, but we need to figure it out.
    Ms. Floberg, just as coverage data may overstate the 
availability of service in some areas, consumers can experience 
a difference between the speed of the service they are 
advertised and the speed of the service they actually receive. 
Would it be helpful for consumers if the FCC collected data on 
actual speeds instead of or in addition to advertised speeds?
    Ms. Floberg. Thank you for the question, Congressman. I 
think that, absolutely, actual speeds are very valuable 
information for consumers to know, for policymakers to know, 
and could certainly be a part of this data collection. There 
currently is a project measuring broadband for America that 
does collect some of this data and this is part of why one of 
our main concerns is making sure that the data collected 
through Form 477 is publicly available and is compatible with 
other datasets.
    As long as we can take the data that we get from Form 477 
about deployment and compare it and use it in conjunction with 
the data that the FCC does already collect about actual speeds 
that also we think would serve to bring that important data 
point to the conversation.
    Mr. Johnson. OK.
    Mr. Spellmeyer, do you have any thoughts on how we can 
identify and correct this problem so that rural users on the 
wrong side of the digital divide can have the same experience 
as urban users do?
    Mr. Spellmeyer. And is your question in relation to the 
mapping or actually getting the service out to them?
    Mr. Johnson. No, it is the advertised versus the----
    Mr. Spellmeyer. Versus the actual.
    Mr. Johnson. What you actually get.
    Mr. Spellmeyer. All right. Well, I wasn't going to wade 
into this, but, you know, on the wireless maps advertising 
plays no role. The one-time data collection that the FCC did 
was not based on advertised speeds, it was supposed to be an 
exercise to map areas where actual speed was above 5 megabits 
per second. That is what would happen under the legislation 
that is before the committee today on the wireless side. That 
is what is in the bill that has already passed the Senate 
Commerce Committee and we hope to get signed into law.
    Mr. Johnson. OK, all right.
    Ms. Bloomfield, when a network is built with support from 
either the Universal Service Fund or the Rural Utility Service, 
what sort of validation processes should be used to ensure that 
the network is actually delivering consistent, high-speed 
service as intended?
    Ms. Bloomfield. That is a really excellent point, because 
when you are a steward of Federal support whether it is USF or 
the ReConnect, you really want to make sure that the consumer 
is getting what you say they are going to get from that 
support. One of the things that the FCC did that I think is 
really interesting when they designed Universal Service 
support, they basically required providers to actually provide 
some of the information like latency and speed and things like 
that.
    So there are some requirements. It is part of the truce 
that you have when you work with the government. And I think 
ReConnect, one of the things that I think has been very 
interesting watching RUS is they are actually doing trials out 
in the field as they are looking at this new grant and grant/
loan program to actually see what is there, what is not there, 
what are the speeds that are there, so it is that extra step of 
doing that, you know, whether it is a challenge process or 
whether it is verification.
    Mr. Johnson. Thank you for your indulgence, Mr. Chairman. I 
yield back.
    Mr. Doyle. The gentleman yields back. The Chair now 
recognizes Mr. Soto for 5 minutes.
    Mr. Soto. Thank you, Chairman.
    When you look at the different sizes of the census block 
and the current rules as far as what counts and what doesn't, 
the gamesmanship that is happening right now becomes really 
obvious. The largest census tract is 8,500 square miles in 
Alaska, and they are as small as half a block that could be, or 
one-tenth of a square mile in an urban area. So when the rule 
is ``if the providers determine they could offer service to at 
least one household,'' you could see how terrible a map we 
could get. Providing one household to the Alaska tract that is 
8,500 square miles, you would get the whole thing on the map. 
We can do obviously a lot better than that. In my district in 
South Osceola County and Polk County, we have large census 
tracts, very rural areas.
    So my first question, Ms. Bloomfield, does this series of 
bills take care of all the loopholes that are preventing us 
from having an accurate broadband map in rural areas or is 
there other things we are not addressing here?
    Ms. Bloomfield. What your legislation does is a really 
important start. It really starts to get more granular and that 
is what we absolutely need to have. You know, my carriers 
provide service to folks on every seven people per mile of 
wire. Here in DC we have 10,000. So you are right, you have 
those huge swaths.
    But one of the things that we need to be thinking about, 
one of the things that is interesting and hasn't really come up 
is RDOF, the Rural Digital Opportunity Fund that the FCC is 
going to be rolling out is really going to start with the 
unserved areas. So the beauty is we have the opportunity to 
move to the shapefile, start getting more granular, get better 
maps, and then as time goes on move to some of the things like 
the work that USTelecom has done I really commend, but I think 
we don't want to hold back.
    I think it is that balance between you have unserved people 
there. You know it every time you go back to a town hall 
meeting, I am sure it is the first thing you hear. So how do we 
keep the process moving, and I think your legislation actually 
very nicely tees up that sequence.
    Mr. Soto. So there is a synergy between this new funding 
and getting more, a more accurate map.
    Mr. Stegeman, are we covering all the loopholes that we 
need to for right now to get a more accurate, rural map?
    Mr. Stegeman. I think it hits most of the key topics which 
are how shapefiles should be formed or that shapefiles should 
be provided. But the fabric is needed. I think the fabric is a 
key part of this. There could be efforts to help explain what a 
shapefile represents. I am sure if I asked anybody here, you 
are not quite sure what a shapefile is and I am sure many 
providers don't know what a shapefile is and they are going to 
have to come up with it. So there may be some clarification of 
what those things represent and what can be in and what can be 
out.
    Mr. Soto. That is helpful. I am also concerned about how 
our broadband efforts are working nationally vis-a-vis some of 
our competitors in the world stage, whether what they are doing 
in China, Japan, or Europe.
    Mr. Spalter, how are our broadband efforts stacking up to 
places like China and Europe?
    Mr. Spalter. I think the record is very clear in a hotly 
competitive national market that the size and the scale that 
the United States is, our broadband service is unparalleled. We 
are investing as an industry close to $80 billion of CapEx in 
our national broadband infrastructure. On a per capita basis 
that is an extraordinary step.
    One of the wonderful challenges that this body, Congress, 
the FCC, and others have posed is can we extend broadband 
service not just to our urban and suburban and even exurban 
areas, but also to our rural areas that are some of the hardest 
to reach places on the planet, and which is why we believe that 
if we can actually accelerate our efforts to have a granular 
and accurate National Broadband Map guiding some of our future 
investment coupled with shapefiles and other types of reporting 
methodologies, we will actually not only get the unserved 
served, but improve national broadband performance overall.
    Mr. Soto. And, Ms. Floberg, how are we stacking up to China 
and Europe and others right now as far as our efforts to 
provide a better broadband coverage throughout the United 
States?
    Ms. Floberg. I can't speak as much to the international 
comparisons, but I think we can hear already from folks in this 
country where we are falling short. I think that a huge part of 
this conversation that needs to be talked about more, really, 
is the affordability portion. We have even in the areas where 
we have made efforts and successful efforts to deploy broadband 
at the fastest available speeds, we are often leaving behind 
people who can't afford a $70-a-month bill to get on to 
Charter's entry-level tier of 200 megabits per second.
    So I think we can see some of those issues and those 
problems even when we just focus on looking inside the United 
States.
    Mr. Soto. Thanks. And I yield back.
    Mr. Doyle. The gentleman yields back. The Chair now 
recognizes Mr. Long for 5 minutes.
    Mr. Long. Thank you, Mr. Chairman.
    And, Mr. Assey, as I said in my opening remarks this 
morning, I believe it is important for any broadband mapping to 
be paired with appropriate enforcement measures that ensure 
providers' submissions are complete and accurate. While 
enforcement is important, it is important to be mindful that 
unintentional mistakes can happen from time to time.
    My question is this. Do you think it makes sense to clarify 
that the standard set forth in the MAPS Act including the word 
``recklessly'' is not intended to apply to providers who submit 
information or data under this act that contains minor 
mistakes, small omissions, or overstatements or other 
unintentional errors?
    Mr. Assey. Yes, I do. I think, you know, as you point out, 
it is one thing to intentionally ignore or violate a rule, but 
we are really embarking upon a new regime here with the drawing 
of shapefiles. And we have some familiarity with them because 
they are used whether it is at the RUS, there have been pilots 
in Kansas, but this is going to involve a lot of different data 
points and innocent mistakes can be made. I think the issue is 
going to be are they material and intentional that would be of 
concern.
    Mr. Long. Yes. Well, that is different if they are 
intentional, you know, but I am talking about just the minor 
mistakes, as we said.
    Mr. Stegeman, I was very excited to see that my home State 
of Missouri was included in one of the two States used in the 
Broadband Mapping Initiative program. How much will it cost to 
produce a nationwide map based on the pilot program that you 
just completed and are there some existing data points that 
could be used that would reduce those costs?
    Mr. Stegeman. Thank you for that question, and we were 
happy to do Missouri. It was a good State to look at. It 
presented a lot of unique characteristics that we could test 
out. As we looked at that map we expect a national fabric to 
cost around $10 million if we are able to use some proprietary 
data. We think we can turn that up within a year so that it is 
usable. That it can help inform----
    Mr. Long. Cost how much again? What did you say?
    Mr. Stegeman. Ten million.
    Mr. Long. OK.
    Mr. Stegeman. Ten million just for the fabric. We think 
that fabric will then be useful for the creation of the 
polygons or the shapefiles to help inform them. It will be 
useful for the consumer to actually be able to look at their 
point on their surface; understand what those shapefiles mean.
    What would help improve the program is for States to step 
forward with databases. In Missouri, Missouri does not have a 
statewide 9-1-1 database. That would have been informative to 
the effort had that occurred and that we could pull that in, 
but counties do have that. So going nationally, I think we 
would expect or ask that States contribute information to us of 
known locations. Many States have good address datasets, good 
locational datasets that would just help improve the process 
and potentially bring down the cost.
    A big portion of the cost is actually the visual 
verification that CrowdReason did for us. Each record is 
actually reviewed by a person who is looking at satellite 
imagery, clicking on the map of where the location is. If we 
can reduce that it will reduce total cost.
    Mr. Long. OK, thank you. And I had one more question for 
you. One of your primary conclusions was that up to 38 percent 
of unserved households in the two States, that being Missouri 
and Virginia, you collected data for would have been missed or 
deemed served by previous FCC Form 477 efforts. Could you break 
down that percentage a bit by explaining, if possible, how that 
figure could be different based upon additional data from cable 
and wireless broadband providers?
    Mr. Stegeman. Yes, we did. So when we put together the 
study for Missouri and Virginia we only have a limited number 
of providers in the study. We did not have the cable providers 
participating and providing us data of what they served. So 
when we published the 38 percent we did note that that is at 
the high end of our estimate of what the total unserved is and 
that it could potentially come down as we get more providers 
reporting information.
    We attempted to estimate that by removing blocks that the 
cable providers serve in the current 477 effort and when we did 
it, it cut it in about half. So it is still the significant 
issue even if we brought in all the cable companies and assumed 
the cable companies served every household in the blocks that 
they serve today.
    Mr. Long. OK, thank you.
    And, Mr. Chairman, I yield back.
    Mr. Doyle. I thank the gentleman. The Chair now recognizes 
Mr. O'Halleran for 5 minutes.
    Mr. O'Halleran. Thank you, Chairman Doyle.
    With scarce Federal resources being spent every year for 
broadband development, we can all agree that the need to 
produce accurate broadband coverage maps has never been 
greater. I believe mapping legislation passed out of this 
committee should be quickly scalable, produce detailed coverage 
data swiftly, and not place extra reporting burdens on small 
internet providers.
    We know too well that the census block reporting structure 
is outdated and hurting rural and Tribal communities. Simply 
ask small town businesses across America, economic development 
groups, our teachers educating children, our public safety 
officials and first responders, our citizens nationwide in 
rural areas whose quality of life is being impacted daily 
without affordable connectivity. They will all say that our 
coverage maps are failing them and we must act quickly to fix 
them, if they knew what a coverage map was.
    This is going to require partnerships for coordination and 
investment. America needs these families where they are at. 
They need to have a good quality of life. Urban America really 
needs these families where they are at. Whether it is for food 
or water or transportation or energy, you name it, urban 
society, urban America doesn't exist without them where they 
are at. And so, we need to find an answer to this.
    Mr. Assey, you stated that the goal of broadband mapping 
should be to focus on where broadband is and isn't and that 
trying to layer other types of data into this particular 
effort, while laudable, could cause unintended delays. What 
exactly is the type of data that the FCC should focus on 
collecting for broadband mapping and how quickly could this 
type of data be replicated nationwide?
    Mr. Assey. Thank you for the question. I think, first and 
foremost, we should follow the direction that the FCC set down 
in the order it recently adopted in August and push forward 
with the adoption of shapefiles. I think that gives us a 
granular picture of where broadband is and where broadband 
isn't. I think the idea of the location tool and really getting 
atomistically into the longitude and latitude of individual 
buildings in unserved America could certainly be of interest.
    And there is a proceeding teed up at the FCC to answer a 
number of the questions that the pilot project turned up. So I 
think it is certainly of something that we should continue to 
look at and pursue, but I would not want that to slow the 
progress that we are about to make in moving to a shapefile-
based reporting.
    Mr. O'Halleran. And what about timing? How quickly could 
that data be replicated nationwide?
    Mr. Assey. Well, that really is up to, I think right now we 
are waiting on some direction from USAC. The order has been 
adopted by the Commission, but we have folks who are, you know, 
making the plans now to be able to comply as quickly as 
possible.
    Mr. O'Halleran. Oh, God help us.
    Ms. Bloomfield, NTCA's membership knows all too well the 
struggles that small internet service providers often face in 
providing broadband in difficult to reach rural communities. I 
was just out in my district and I traveled about 4,500 miles 
and I had cell reception at least half the time, so I can just 
imagine what the rest of it is like. As Congress and the FCC 
work towards reforming the reporting requirements that produce 
our maps, could you outline the importance of mapping 
legislation offering technical and financial assistance to 
small providers under a new reporting structure?
    Ms. Bloomfield. I appreciate your thinking that way, 
because again as you look at carriers particularly small ones 
taking on additional burdens, the question is, you know, if you 
have a staff of 15 what can you actually accomplish. I think 
from a shapefile perspective, I think that folks already file 
so much data now because most of my companies are Universal 
Service recipients so they are very used to collecting data, 
sharing data; that is part of their kind of process.
    Going to a more complex system, greatly appreciate the 
thought process that you may be leading down, which is that it 
may take more resources as we get even more granular to help 
some of these smaller providers actually track where exactly 
those locations that are served or are not exist.
    Mr. O'Halleran. I am not leading down it, that is where I 
am going. And thank you for your comments. I just want to say 
we need to invest more as a government in this process. It is 
about our citizens and their safety also.
    Thank you, Mr. Chairman. I yield.
    Mr. Doyle. The gentleman yields back. The Chair now 
recognizes Mr. Flores for 5 minutes.
    Mr. Flores. Thank you, Chairman Doyle and Republican Leader 
Latta, for holding this important hearing, and I want to thank 
the panel for joining us today.
    Each time the subject of rural broadband and rural mobile 
service comes up, people invariably complain about the maps, so 
it is important that we get this right. Also, no one in this 
committee wants to have a repeat of the BTOP program, earlier 
in this decade, where $4 billion was pushed out the door and we 
got virtually no effect on expanding coverage. As a matter of 
fact, there are only two projects that have received funding 
since 2010 and the rest of it was essentially wasted.
    Mr. Assey, my question for you is this. In your testimony 
you highlighted a need for any mapping track data to show areas 
where providers have been awarded Federal funds to deploy 
broadband. In doing so we could properly designate the National 
Broadband Map to reflect, first of all, which areas are using, 
or second, which areas will require Federal assistance to 
provide service.
    I couldn't agree more that we need to make sure that finite 
resources go to the truly unserved and that private 
stakeholders involved in building out the next generation of 
technology know that they are not going to be competing with 
the Federal Government when they make their investment.
    So my first question is this. To what extent would it be 
helpful for the National Broadband Map to require additional 
reporting information for the areas that are covered using 
Federal funds?
    Mr. Assey. I think it would be very helpful. You know, we, 
I totally agree with the points you made about duplication and 
really sending funds to places that broadband already exists. 
That to me is not the best stewardship of public funds. But I 
also think it is important not only to make sure that our money 
is spent wisely, but also to ensure that there is 
accountability when we do actually fund projects to make sure 
that we know exactly where broadband was delivered and that the 
map is updated appropriately.
    Mr. Flores. OK. And continuing along the question of 
duplication, to your knowledge how much interagency 
coordination occurs to avoid cross-subsidizing in the same area 
with different Federal programs such as the High Cost Program 
and the Rural Utility Service program?
    Mr. Assey. I don't know that I would hazard a guess on how 
much coordination there is. I know that they obviously do talk 
from time to time, but I think they are all dealing with 
imperfect tools presently, and our hope is by getting a better 
broadband map that will assist their coordination and certainly 
your pushing the right direction will help as well.
    Mr. Flores. That is certainly something we in Congress need 
to work on is making sure we are not having duplication of 
efforts and when it comes to the subsidization programs.
    Mr. Spellmeyer, I agree with your testimony in which you 
voice your support for H.R. 4229, the Broadband DATA Act, and 
specifically for the inclusion and standardization of 
definitions for radio frequency engineering terms used to 
measure signal strength and propagation. Further, you note that 
this bill would require the FCC to continue revising the rules 
in the future to reflect changes in mapping related 
technologies.
    Can you expand on why common standards are so important for 
mapping needs and to what extent standardization will be 
helpful as the next generation of mapping technologies is 
developed?
    Mr. Spellmeyer. Well, certainly getting a common set of 
standards is important when you are trying to take the claimed 
coverage by, you know, a number of providers, two, three, four, 
five in a given area and overlay them on top of each other. 
That is where the FCC kind of veered off course a number of 
years ago. Chairman Pai made some efforts to try to standardize 
it with the last one-time data collection.
    Unfortunately, we are going to be headed back, I think, 
after this legislation passes to do another one-time data 
collection. It is really important that we fix some of the 
things like the cell edge probability, because if that number 
is too low you are building in an error factor that once you 
lay one map on top of the other it begins to multiply itself.
    Now, it is also important to the second half of your 
question to focus on evolving technologies over time. We are on 
the precipice of 5G. My company wants to bring 5G to lots of 
places in rural America and the legislation gives the FCC the 
tools to update that over time as that continues to deploy.
    Mr. Flores. OK, thank you. I yield back the balance of my 
time.
    Mr. Doyle. The gentleman yields back. The Chair now 
recognizes Ms. Eshoo for 5 minutes.
    Ms. Eshoo. Thank you, Mr. Chairman. My number one wish is 
that under your leadership and that of Mr. Latta that we get 
this done. It has been a long time. It is too long.
    To all the witnesses, you have given terrific testimony and 
we are always better for it. We really do pay attention to what 
you say. This is about mapping our future, the future of 
America, and sometimes I think we get bogged down in--well, in 
many ways, by necessity, in a lot of the details. But I think 
the overarching call to action needs to be based on what I just 
said, that this a map for America's future.
    And my first question is, and if each one of you can say 
yes or no, I--well, let's see what you will say. Based on the 
legislation that is at hand and I think will succeed--it is 
bipartisan, it is sensible, it has strength in it, all of those 
factors--if technologies change and they always do, given all 
the collective expertise at the table, does this legislation, 
can it stretch itself so that it meets future challenges?
    In other words, if it is just for now and what we have now, 
then you know what, you are going to be back here testifying 
and I don't know how much longer I am going to be able to show 
up for meetings on mapping. But do you think that this 
legislation speaks to the future, future technologies? And, you 
know, for example, moving to satellites. There are so many 
areas that I don't want to have to keep revisiting new types of 
fixed or mobile broadband technologies, small cell sites, 
satellites, I could go on and on. You know what I am talking 
about. So yes, no?
    Ms. Bloomfield. So I would say the framework of the bill 
will live on. I think the standards could change, but that is 
up to the FCC to work on that. So absolutely, yes. This is a 
framework for the future.
    Mr. Assey. Yes, I agree. And as you said, we are creating a 
map, but it is also a living map so it will be flexible to 
accommodate new technology.
    Ms. Eshoo. Good. Encouraging.
    Mr. Spellmeyer. My answer would be absolutely. And the good 
news is the Senate is tired of dealing with this issue. They 
have moved a bill out of committee and I think they are going 
to send it over here soon and hopefully you guys can adopt it.
    Ms. Eshoo. Wonderful.
    Ms. Floberg. We are also optimistic that this bill would be 
applicable and useful for future technologies.
    Ms. Eshoo. Great. Good.
    Mr. Spalter. It is a strong, durable, and sustainable 
framework. It is based on, and this is the genius that it 
insists that we at a granular level can map both served 
locations but also unserved locations and then be able to 
update it as a living document with crowdsourcing and other 
types of----
    Ms. Eshoo. Good.
    Mr. Spalter [continuing]. More effective, challenging 
mechanisms.
    Mr. Stegeman. I would agree it does. It is a flexible bill 
and it does provide flexibility into the future for new 
technologies as they come out.
    Ms. Eshoo. Yes. I think that Mr. Stegeman is the only 
statistician on the panel today. Thank you very much.
     And I think the most often used word, because I have been 
here for a long time this morning, is granular. So whomever, I 
don't know, maybe there is a prize for that.
    Let me--I think each one of you have talked about the 
challenge process so that consumers and government officials 
can speak up when the FCC data doesn't reflect reality. My 
question is this data is available today in CVS files, which is 
easily accessed in Microsoft Excel or Google Docs and also 
easily accessed by researchers using R and Stata and other 
statistical software.
    Do you think that shapefiles can be turned into a format 
that is easily accessible for people to understand--this is 
real operative phrase in my question--easily accessible for 
people to understand so they know whether or not to challenge 
the FCC data?
    Mr. Stegeman. If I can take a first shot at that.
    Ms. Eshoo. Yes, sure.
    Mr. Stegeman. So shapefiles will be a challenge only from 
the aspect of, one, normalization of what the shapefiles mean; 
two, is they are potentially----
    Ms. Eshoo. I don't know what that means.
    Mr. Stegeman. It is what are the shapefiles based on. Are 
they based on points, are they based on roads, what does it 
represent?
    Ms. Eshoo. I see.
    Mr. Stegeman. And if my address falls in it, does that mean 
I am served, and those types of issues. But there will be 4,000 
of these potential shapefiles filed by all the providers. If 
you look at all of them out there each one will have to provide 
shapefiles by speed, so it may overwhelm researchers.
    The point level data, the fabric, actually may be easier to 
analyze just because it is point-specific data and I don't have 
to analyze all these shapefile layers that will be stacked upon 
each other, which makes it difficult for research. It can be 
done, but point level data just makes it a bit easier to work 
with the data.
    Ms. Eshoo. Easier.
    Mr. Stegeman. Easier.
    Ms. Eshoo. I think my time is expired. I don't know if I 
get all of that or if my next-door neighbor will know how to 
access this, but I am going to trust what you said.
    Thank you, Mr. Chairman.
    Mr. Doyle. The gentlelady yields back. The Chair now 
recognizes Mrs. Brooks for 5 minutes.
    Mrs. Brooks. Thank you, Mr. Chairman.
    Thanks for all of your testimony. I love what my colleague 
from California just said. Not only has she and others been 
working on this for a long time, but she is thinking about the 
future as she always does and is thinking about let's not pass 
something that is going to be stuck in time, and that is always 
the challenge with all of our legislation around technology. So 
thank you on the flexibility and the forward-leaning.
    I have to admit, like Congresswoman Eshoo there were terms 
that, you know, are just foreign to all of us. Shapefiles, 
fabric issues, I mean these are just not commonly understood 
terms, and I applaud you, Ms. Bloomfield, acknowledging that 
you might not know the speed of your internet. Most of us 
don't, really. And so to the extent that you all can just 
continue to educate the American people, because this is really 
the issue for the future and for everyone in our country.
    Indiana, I am really proud, has made a commitment to 
broadband buildout on a State program called Next Level 
Broadband and we are going to be investing a hundred million 
dollars for broadband in our nonserved and underserved areas. 
Officials involved with those buildouts though have told me 
that we have ongoing problems. We heard this from Scott Rudd, 
the director of our broadband opportunities for Lieutenant 
Governor Crouch, that we are having ongoing problems with 
households paying for internet service but then having such 
restricted access due to network outages. And we haven't really 
talked about that with the fault, you know, resting on the 
ISPs, so essentially, they don't have internet access.
    Has there been any discussion in all of this about whether 
or not to include network outages as part of any criteria for 
whether a location is served or not in the new proposed mapping 
regime being pursued? We hear about latency, but what about 
outages? Has that been discussed at all and why or why not? 
Anyone have any answers for that?
    Mr. Spellmeyer. Congresswoman, I have not heard any 
discussion on that in relation to the wireless side of the 
equation. We certainly have outage reporting obligations to the 
FCC that we engage in on a regular basis when they are 
triggered, but I haven't heard. You know, I think as an 
industry we try to deliver a service that is relatively 
reliable, you know, 99.9 percent of the time, and I don't see 
that as a big issue on the wireless side.
    Mrs. Brooks. Anyone else?
    Ms. Bloomfield. Again, I would also say that wireline 
carriers also have obligations and reporting requirements. As 
we talk about different things that could be plugged in, you 
know, adding that as a factor might make sense. Honestly, they 
have such strict obligations, I am actually surprised to hear 
that that is such a big issue in Indiana.
    Mrs. Brooks. Well, I would be really interested.
    Mr. Spalter, did you----
    Mr. Spalter. I am sorry. If you needed to complete----
    Mrs. Brooks. No, no, no. Did you have anything?
    Mr. Spalter. Well, thank you, Congresswoman. Well, the 
really important aspect of the legislation before this 
committee is that it insists that we move forward, before we 
actually spend Federal resources to achieve greater broadband 
support for unserved communities, that we have a map that is 
sufficiently granular that shows where served and unserved 
locations are. That is the location fabric. Once we have that 
you can then layer on all kinds of other reporting 
methodologies. Shapefiles, highly complementary to it, 
potentially even reporting of network blockage or network 
outage moments, as Mr. Stegeman just advised me.
    But what we need to start with precedentially, if we are 
going to be good stewards of Federal dollars and really close 
the digital divide, is first do our fundamental work of 
developing and scaling that location fabric which shows where 
the locations that are currently served and takes that next 
important, Holy Grail step of identifying by the rooftop level 
where there are unserved locations still in America.
    Mrs. Brooks. OK. Well, thank you. And if anyone wants to 
call Scott Rudd, feel free to find out what he is concerned 
with. I want to thank Mr. Stegeman in my remaining time, 
because in case you are contemplating doing more pilots Indiana 
would welcome the opportunity for you to conduct more pilots. 
But given the issues you said were present in address data, do 
you have any thoughts on whether addresses should be considered 
served if ISPs don't actually know whether or not they serve a 
specific household or not?
    Mr. Stegeman. It is a good question. The address level data 
that we have seen there are difficulties in tying that address 
to a point on the Earth surface and actually identifying your 
house, sometimes, in rural areas. It just doesn't link up. When 
you get it in Google or elsewhere it doesn't line up. So the 
fabric provides that additional knowledge of where the location 
is, so that you understand if you will have access to service 
or not when you have the maps available.
    Mrs. Brooks. OK, thank you and thank you for your work. I 
yield back.
    Mr. Doyle. The gentlelady yields back. The Chair now 
recognizes Mr. Butterfield for 5 minutes.
    Mr. Butterfield. Thank you very much, Mr. Chairman. And to 
the ranking member, thank you for your continued efforts to 
improve the accuracy of our National Broadband Maps. I wish Ms. 
Eshoo was still here. I would publicly associate myself with 
her remarks. And then Mrs. Brooks came along from Indiana and 
she aligned herself with Ms. Eshoo. And I just want to say that 
what both of these Members have said is critically important.
    I came on this committee January 3rd of 2007. I guess that 
has been 12 years now, and every year that I have been on this 
committee we have been talking about mapping. And so, as Ms. 
Eshoo said, let's just get it done. The data is crucial to 
understanding which parts of our country still lack adequate 
broadband infrastructure and sufficient speeds to use the 
internet effectively.
    There are still parts of my district as my other colleagues 
have mentioned in their districts, there are still parts of my 
district in eastern North Carolina that do not have consistent 
access to reliable broadband, a resource critical to competing 
in today's economy. The problem is exacerbated by the fact that 
our maps purporting to identify underserved and unserved areas 
remain absolutely inaccurate.
    That is why I was delighted to join Mr. O'Halleran and Mrs. 
Rodgers as original cosponsor of H.R. 3162. Our bill will 
ensure, Mr. Chairman, that national service data is accurate 
and will hold providers accountable for the mapping data, 
shapefiles if you will, that they submit. It is my hope and 
belief that this bill and others that we will consider will aid 
us in bringing the promise of the internet age to all 
Americans.
    Let me go to my far left, since I am most comfortable with 
that.
    [Laughter.]
    Mr. Butterfield. I have friends on the right too.
    But, Ms. Bloomfield, I agree with you that it is important 
to engage in a challenge process before an agency gives out 
broadband funding, but how do we strike the right balance, if 
you will, so that providers and the FCC aren't so overwhelmed 
by challenges that vital funding gets delayed?
    Ms. Bloomfield. That is an excellent question. It is a 
balance and you are always seeking that balance. And I think in 
part as you move to more granular maps you are going to have 
better maps so the gap is going to narrow, so you are going to 
have better information so you are going to start from that; 
that if this bill is enacted, FCC moves forward, the maps will 
become more granular by definition, so the areas that you are 
looking to actually do these challenges process in will be more 
limited.
    I think, you know, you don't want people to do this on a 
whim, but I think that again the story of what is on the ground 
is really the sanity check because you are dealing with self-
reporting data so you need to have that reality check of what 
is actually taking place. I think there is a way to strike that 
balance and I think it is going to be an important one. I don't 
think we are going to see what we saw with the Mobility Fund, I 
think, again because better mapping will lead to better data.
    Mr. Butterfield. All right.
    Mr. Assey, if I can go to you next, please, I think it is 
important for the public to be able to provide input on the 
broadband maps so that we get a better sense of really what is 
happening on the ground. I understand you support both 
crowdsourcing and a challenge process as a means of getting 
this done. Could you please talk about how those public input 
opportunities will create a more accurate broadband map?
    Mr. Assey. Sure. And I would agree with Ms. Bloomfield, we 
do have to have standards and make sure that we come up with a 
mechanism that is administratively workable and provides public 
input that can lead to more accurate maps. But the fact of the 
matter is that sometimes the people with the best information 
are the people with boots on the ground.
    And certainly there is a capability to challenge 
representations that are made and this is a process that we can 
create to hopefully improve the accuracy of the maps we have. 
We have some experience at least with respect to grants that 
have been made for broadband previously in developing a 
challenge process and hopefully we can learn from that in 
developing a process that the general public can participate in 
as well.
    Mr. Butterfield. If I may continue with you very briefly, I 
think it is important for the public--excuse me. I am an 
original cosponsor of the mapping bill introduced by Mr. 
O'Halleran and I would like to go back to your testimony where 
you talked about the benefits of using shapefiles to map 
broadband service. As you know, much of my district in North 
Carolina is rural so getting the best broadband data in the 
quickest way possible is important to me and to my 
constituents. Could you explain how shapefiles can achieve more 
granular data?
    Mr. Assey. Sure. I think shapefiles will allow network 
providers to draw boundaries around their service areas based 
on what they know, based on the places they are, the places 
their lines run, the places they offer service or can offer 
service. Right now, we have a reporting mechanism that 
essentially requires us to report on the basis of presence or 
absence in a census block.
    So I think being able to rely on the provider at least as a 
matter of first instance to draw the boundaries of where it can 
serve will lead to more accurate results and we will be able to 
refine that over time.
    Mr. Butterfield. Thank you. Is this similar to tax mapping? 
All of our tax departments have this GIS system. Is it in the 
same, yes?
    Mr. Assey. I am sorry, I couldn't tell you.
    Mr. Butterfield. All right, thank you. I yield back.
    Mr. Doyle. The gentleman yields back. The Chair now 
recognizes Mr. Walberg for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman. And thanks to the 
committee for having this hearing and for the witnesses to be 
here. All I know is that for too long my constituents in 
southern rural Michigan have been missing out on the 21st 
century digital economy due to flawed broadband availability 
maps. But, more importantly, I don't care whether I look at it 
through a shapefile in the fabric or how granular I get, I 
can't find broadband at my property and so I am left out as 
well.
    So it is personal to me and so I commend the members of the 
committee here today for offering this legislation and for us 
debating it. I am just hoping it works as we move forward with 
what ought to be. When I first heard about shapefiles, I 
remember my singing quartet experience of shape notes. I know 
all about that, but shapefiles I am going to learn more about 
through practical experience.
    Mr. Spalter, in your testimony you spoke of how the 
Broadband Serviceable Location Fabric could be the underpinning 
of a, as you said, a contemporary, tailored and updatable 
broadband map to serve as the foundation for all future 
spending decisions. I believe we must ensure efforts to improve 
our maps are not just for the short term, so I think I agree 
with you on that.
    How important is it for the fabric to reflect changes in 
mapping capabilities in the future and do you have 
recommendations on how we can improve mapping sources so the 
fabric can be constantly improving?
    Mr. Spalter. The foundational element of any improvement 
for future broadband mapping methodologies has to be again that 
location fabric that will be a national dataset that shows 
where locations are served, but also importantly where they are 
unserved.
    And once we are able to establish that location dataset, 
and we know that we can do it timely and affordably within a 
year, then you can dynamically add on all kinds of reporting 
and complementary reporting methodologies like shapefiles, 
other types of datasets that will be coming online that will be 
made available openly, in an open source way through State, 
local, and even municipal data sources in new, innovative, 
proprietary data sources, additional company-led efforts to 
initiate open source methodologies, for example, like 
Microsoft's rooftop imagery datasets which already are 
incorporated into our location fabric.
    But it all starts with the need to have a baseline 
understanding of where our broadband-served locations currently 
are and where they are not. And upon that then we can couple 
all kinds of other reporting methodologies. And we must do so 
particularly as we are looking about the opportunity of 
spending $20 billion in a Rural Digital Opportunity Fund, 
three-quarters of which according to the current design will be 
out the door without the benefit of this foundational dataset.
    We need to have a proper sequencing, which is why we 
support your efforts in this committee echoing what has gone in 
the Senate with similar legislation to move forward to 
establish this foundational dataset.
    Mr. Walberg. Thank you. I appreciate that.
    Mr. Assey, it is vital that we obtain more detailed 
information about where service is and where service is not so 
that we can better identify the truly unserved populations. Do 
you believe incorporating shapefiles will help achieve this 
goal and if so, how?
    Mr. Assey. Shapefiles will definitely help us achieve the 
goal of more accurately identifying households that are 
unserved. And to the extent we can do that we can better 
marshal our resources to fill those gaps.
    Mr. Walberg. Well, we hope that is the case, very much so.
    Ms. Bloomfield, can you talk about how important an ongoing 
and periodic challenge process is to improving our Nation's 
mapping capabilities?
    Ms. Bloomfield. Absolutely. So as everybody was talking 
about whether you go shapefiles, fabric, you know, what 
sequence you are looking at, again it is still self-reported 
data. So at the end of the day the challenge process is going 
to be really important because it is your sanity check. It is 
the one chance to be able to say what is really happening.
    Mr. Walberg. That is good nomenclature.
    Ms. Bloomfield. So I think it is really critical. And, you 
know, we have seen it work in programs. RUS has a challenge 
process with some of their awards that they are doing under the 
ReConnect. It is an important part to make sure that if you 
have Federal resources that are pretty limited, how do we 
direct them particularly to the unserved, then start working to 
the underserved, and then continuing to build and sustain that 
work.
    So if we are really going to tackle this as a country and 
we are really going to be serious about it we have got to use 
the resources wisely and the challenge process will help us do 
that.
    Mr. Walberg. Thank you. I yield back.
    Mr. Doyle. The gentleman yields. The Chair now recognizes 
Mr. Welch for 5 minutes.
    Mr. Welch. Thank you very much, Mr. Chairman. I am glad the 
committee is finally acting to fix this widely inaccurate 
broadband map situation. We have been at it for a number of 
years, and finally we have a chairman who has got the gavel 
that is going to make something happen. Thank you, Mr. Doyle.
    You know, one of the things that actually is very troubling 
is in the zeal of the FCC to get out feel-good information 
there was no critical assessment of what the reality was for 
people in rural Vermont or in rural South Dakota or in rural 
Iowa, and it is pretty outrageous. I just want to say that 
because there was all this happy talk for years that we have 
coverage in all these areas when we didn't, and that was our 
government really neglecting rural America. And I just want to 
register my outrage at that because so much of the people we 
represent need that coverage and don't want to be second-class 
citizens. So when this Congress says the rural America is going 
to get that equal service, more or less, but then the FCC 
doesn't stand up to make that happen, it really is not 
acceptable.
    Now having said that, I am very happy with this panel and 
with the progress we now are making, but we have got to follow 
through on this because it has to be at the end of the day that 
rural America has the tools it needs in order to survive and 
compete. And that is real common thread amongst all of us who 
represent rural America.
    But let me ask a few questions. I will start with you, Mr. 
Spellmeyer. We have been talking about the mapping challenges 
for years now, so it is nice to have a concrete discussion 
about progress in the committee. Can you share with the 
committee what your company found when it went around the 
country and challenged the maps during the Mobility Fund II 
process and where do we go from here?
    Mr. Spellmeyer. Yes, Congressman. The short answer is we 
found a mess. As I said in my testimony, we spent $2 million. 
That was a significant investment on our part to hire drive 
test companies to drive around. I think we covered 16 States. 
We found more places to challenge than we didn't find and we 
submitted a huge number of challenges to the FCC.
    I think you are right. I have been talking about this issue 
for a decade and I actually think it is a good-news story of 
Congress actually working. For a long time I couldn't get 
bureaucrats in Washington to pay any attention to this issue 
and eventually it was conversations with members of the Senate 
and Members of the House who all looked at me and said, ``Yes, 
you are right, I don't have coverage in my district,'' that 
allowed us to raise the profile of this issue and get to where 
we are at today. And I am actually really excited that we can 
pass this bill.
    Mr. Welch. Well, let's keep going.
    Ms. Bloomfield, do we have to have a challenge process in 
place?
    Ms. Bloomfield. I would not go down this road without a 
challenge process. I think it is very important you need a 
verification. If you are going to really take this seriously--
--
    Mr. Welch. Right.
    Ms. Bloomfield [continuing]. There is only so much--first 
of all, I think it is impressive that you have a panel that 
includes a lot of provider representatives who are all saying 
we want to report, we will report, but you have got to be able 
to verify.
    Mr. Welch. Thank you.
    Mr. Spalter, when you are mapping broadband do you feel it 
is important to consider latency and usage limits or is 
tracking speed enough?
    Mr. Spalter. I think that latency is an important, critical 
insight that will inform not only, you know, the quality of 
service that ultimately consumers need, but also will help 
direct our Federal broadband support programs to the kinds of 
technologies that actually can toe the line when it comes to 
maintaining those standards.
    We know, particularly, if we want to have a 5G world, we 
are going to have to have a wireline infrastructure to provide 
the backhaul especially in rural America to make that promise 
available to those citizens that live in our rural communities.
    Mr. Welch. Thanks.
    Mr. Spalter. And the latency requirements need to be 
eventually part of any assessment of where our broadband 
dollars are going to be most effectively used.
    Mr. Welch. Thank you.
    Ms. Floberg, do you want to comment on that as well?
    Ms. Floberg. Yes. I think that when we are looking at, 
first of all, the broader digital divide, not just questions of 
deployment but questions of competition, questions of 
affordability, the more information we can get about what this 
market actually looks like for consumers is going to be 
immensely valuable for policymakers. Usage limits, for example, 
can have a huge impact on how a customer uses services, whether 
or not they have to pay more for that service than they 
initially signed up for; whether or not they can use that 
service consistently.
    So I think especially as we try to use this legislation as 
a stepping stone and move into talking about the broader 
digital divide and these competitive issues and affordability 
issues, these kinds of quality of service metrics should be 
part of the conversation.
    Mr. Welch. Thank you. I yield back. Thank you, Mr. 
Chairman.
    Mr. Doyle. Thank you. The Chair now recognizes Mr. 
Gianforte for 5 minutes.
    Mr. Gianforte. Thank you, Mr. Chairman. And thank you to 
the panel for this important discussion today.
    During our hearing with the FCC commissioners, many Members 
on this committee raised concerns about the accuracy of Form 
477 and the FCC coverage maps. The inaccuracy of these maps 
show cell phone and broadband coverage in areas of Montana 
where we have no coverage. This failure reduces USF investment 
in our most hard-to-reach places and it could lead to 
overbuilding in some areas while underbuilding in others.
    The lack of high-speed broadband coverage and investment 
has real impacts on hardworking Montana families. I have heard 
from small business owners who because they don't have access 
to reliable cell coverage just can't conduct business while 
they travel around the State. Recent FCC reports on broadband 
deployment claim that 86 percent of Montanans had access to 
high-speed internet service. This is simply not true. Many of 
the providers I have met with believe that the number is 
greatly inflated and that access is probably closer to 50 
percent. The FCC even acknowledged its figures aren't correct 
and has issued fines to companies that have overstated 
coverage.
    Recently we had Commissioner Brendan Carr to Montana. I 
commend him. He has now traveled to over 30 States to observe 
locally to get on the ground. He stated when he was in Montana, 
Montana has the worst cell phone coverage of any State he has 
been to so far. I know I can also attest that every Montanan 
can tell you exactly where on the interstate you are going to 
lose coverage and how long it is going to take to get it back 
so you can continue a conversation.
    That is why I signed on to the Broadband Data Improvement 
Act. Rather than using large and inaccurate census blocks, 
Representative Rodgers' bill encourages the FCC to use 
shapefiles in order to give a better idea of where broadband 
coverage is and, more importantly, where it isn't so we can 
invest. I think we should also focus on the challenge process--
we have had a lot of discussion on that here today--to help 
smaller co-ops and rural broadband providers challenge coverage 
maps before funding is disbursed.
    There is a conversation about using crowdsource data which 
could be informative, but not a deciding factor in this 
accuracy of the maps. It is time to get these maps right so we 
can invest in those areas that need it most to close this 
digital divide so that Montanans can have better access and 
more reliable access to broadband and cell coverage.
    So, Ms. Bloomfield, it is good to see you again. Thank you 
for traveling to Montana. It was good to have you there at the 
Montana Telecom Association event in Big Sky just a couple of 
weeks ago. We spent a lot of time there talking about mapping 
and the other challenges Montanans face.
    I want to drill into this challenge process a little bit. 
You have talked about it today, the importance, so that our 
small guys who have actually been, in my mind, better stewards 
of the USF dollars than some of the larger legacy out-of-state 
providers who have not invested the way the local people have. 
Could you just reiterate briefly the importance of the 
challenge process?
    Ms. Bloomfield. Absolutely. So particularly as we are 
looking at the Rural Digital Opportunity Fund coming out, 
Congressman, and again, you know, I knew exactly where, even in 
Big Sky, and we joke because it is a resort, you just go a mile 
down the road and you lose service. You lose actually internet 
access everywhere.
    So it is, these programs like Universal Service are going 
to be really important. And choosing to put those dollars in 
the areas, and we look at RDOF, it is the opportunity for 
carriers who are not going to be providing service in those 
territories to basically say so and allow other providers to 
come in. To best direct those fundings we really need to know 
where those resources can be directed so you can start filling 
in the gaps in a State like Montana which has gaps.
    Mr. Gianforte. Now we just had some discussion from the 
prior questioner. Mr. Spalter spoke about the need to consider 
latency and usage limits in addition to just tracking speed. 
Could you comment on that further, Ms. Bloomfield?
    Ms. Bloomfield. Absolutely. You know, I think when we start 
looking at standards and we start looking at what service 
really entails and obviously people think about speed and they 
think about their experience, but part of the experience really 
is truly the latency and it is the ability to be able to do 
some of the things like Ms. Floberg had talked about where, you 
know, when if your access might be tied to usage and you have a 
kid doing homework and you have, you know, data limits, at some 
point you are really kind of tying the hands of some of your 
consumers.
    So making sure that folks actually submit and report that 
information, it is not onerous to do so and if we are really 
going to take this seriously and gather data we should gather 
all the data we can.
    Mr. Gianforte. Great. Well, I just want to re-emphasize the 
need for accurate maps. We do not have accurate maps in 
Montana. And as a result, the USF dollars, taxpayer money, is 
just not being invested properly. So thank you for testimony. 
With that I yield back.
    Mr. Doyle. The Chair now recognizes Ms. Clarke for 5 
minutes.
    Ms. Clarke. Thank you very much, Mr. Chairman. And I thank 
our ranking member, Mr. Latta, for convening this subcommittee 
hearing today on improving our Nation's broadband maps.
    Broadband has proved to be an equitable instrument to level 
the playing field for millions of Americans and a necessary 
step to ensuring the success of our national infrastructure. 
The use of this technology has the potential to decrease the 
digital divide so consumers can have access to educational and 
employment opportunities, and this is no longer a luxury for my 
constituents.
    However, fraudulent broadband mapping reporting on 
broadband access is a barrier to consumers whether they are 
from rural America or urban America. These harmful reporting 
practices skew the data that determines where and how Federal 
dollars is spent. Thus, in a GAO report it was found that the 
FCC data overstated broadband deployment by allowing providers 
to report availability in blocks where they do not have any 
infrastructure connecting homes to their networks if the 
providers determined that they could offer service to at least 
one household. We have heard that.
    It is incumbent on each Member here to ensure that these 
gaps and broadband coverage are addressed in a manner that will 
protect the American people and help to close the digital 
divide across our country. Like our highway system, if you 
don't make sure that every road is connected at some point, we 
are going to have catastrophic circumstances and parts of our 
Nation will be left behind.
    So my first question is actually to Ms. Floberg. Ms. 
Floberg, can you describe the effect that high prices have on 
closing the digital divide and is that a good reason for the 
FCC to collect pricing data?
    Ms. Floberg. I would say it is an excellent reason for the 
FCC to collect pricing data. What we have seen is that right 
now according to the current FCC Form 477 collection, 141 
million people in this country don't subscribe to broadband at 
the FCC's 25/3 speed threshold.
    Now there is, this conversation is a lot about trying to 
figure out how big of a proportion that don't have access, 
can't subscribe to that service because it is not available and 
that is an important problem. But we still have, 
conservatively, a hundred million people who do have access to 
25/3 and they can't subscribe, or they subscribe to a slower 
tier because that is the only option they have. They can't 
afford to get the fast kind of internet that they need or 
again, millions and millions more people who do subscribe but 
are constantly having to make sacrifices and to choose what 
they pay for this month.
    Can they afford the internet this month or can they afford 
food this month? And those kinds of choices are not choices we 
should be asking people to make. They are not choices that 
indicate a closed digital divide.
    Ms. Clarke. Absolutely, thank you.
    The FCC's mapping data is utilized for various policy 
matters including Federal subsidies. Additionally, the data is 
used to better understand telecom marketing competition, 
specifically to review mergers. Mr. Spalter, how is mapping 
data utilized to justify potential telecom mergers and how will 
update flawed collection methods like Form 477 and broadband 
maps help improve this process?
    Mr. Spalter. I can't speak specifically to how broadband 
mapping, per se, can actually improve or accelerate the ability 
to effectively and incisively evaluate mergers. I am not an 
antitrust expert. However, what I do know is that the ability 
to deliver to policymakers at the FCC, at other agencies of 
government across the country, a mechanism to more accurately 
and with specificity pinpoint where our current locations are 
served and unserved is a start of an extraordinary range of 
diverse and innovative reporting and/or analytic opportunities 
that we could layer on to that foundational dataset such as 
merger reviews that will actually be able to accelerate good 
public policy and allow us to maintain really good stewardship 
of the kinds of dollars that we are committing through public 
programs.
    Ms. Clarke. Very well. I have like 22 seconds left. Would 
you like--OK. Let me ask a final question in that quickly.
    Ms. Bloomfield, it is important to improve broadband 
mapping so that we can identify more precisely where broadband 
is available, but also to examine the quality. Do you agree 
that information on quality of service is valuable too? If so, 
can you expand on this statement?
    Ms. Bloomfield. Absolutely. I think it is a good idea to 
actually capture performance. But I think, again, when I hear 
this committee talk about how long it is taking to get mapping 
done, I would say right now the discussion on the table is also 
about like how do we get the location, how do we get the 
accuracy in that? I think teeing up for another day, 
absolutely, discussions about, you know, we welcome better 
visibility into the performance process, so those are also key 
discussions.
    Ms. Clarke. Thank you very much. I yield back, Mr. 
Chairman.
    Mr. Doyle. I thank the gentlelady. The Chair now recognizes 
Mr. Bilirakis for 5 minutes.
    Mr. Bilirakis. Thank you. Thank you, Mr. Chairman. I 
appreciate it and I appreciate the testimony of the panel.
    Representative Lujan and the chairman and myself have 
introduced legislation that would provide some accountability 
to the mapping process. The Map Improvement Act directs the FCC 
to engage in standardized information collection and 
incorporate it into a single map. This seems like common sense 
to me. The bill also allows for consumers to provide feedback 
on map accuracy. That makes sense too, since the individual 
themselves is the ultimate decider of whether coverage exists 
at their property or not.
    Mr. Spalter, do you think that including the intended end 
user in the coverage map is an important check on map accuracy, 
and then also and how would you envision the review process 
taking shape from the company perspective?
    Mr. Spalter. It is not only important, but it is entirely 
appropriate, Congressman Bilirakis, to facilitate that not only 
for Federal Government's, but for all levels of governments, 
Tribal entities, to be able to actually have that kind of 
accountability and verifiability that comes with both challenge 
and verifiability processes.
    One of the benefits, actually, of advancing in the proper 
sequence at the front end, a location fabric, is that it will 
actually allow us, as Ms. Bloomfield pointed out, to minimize 
the number of challenges we ultimately are going to have 
because we all have a reference point, a national reference 
point of where locations are and where they are not, against 
which it will be a lot harder and there will be more 
disincentives to report inaccurately.
    So we think that crowdsourcing, keeping this as a living 
document that can be iterated with the best kinds of products 
that are out there in the marketplace, every year, is an 
important step and we support it.
    Mr. Bilirakis. Very good, thank you.
    Mr. Assey, the FCC is questioning whether it should require 
more granular data. One complaint from providers for very 
granular address level service data is that such information 
could be used as a target for their competitors. Is this a 
reasonable fear, in your opinion and, if so, what can be done 
to ensure that the FCC has accurate and reliable data but also 
protect sensitive information for their industry regardless of 
how granular it is? If you could answer that I would appreciate 
it.
    Mr. Assey. Sure. Thank you for the question. I mean, 
obviously there is competitively sensitive data that all 
companies have about their plans to serve their customers. I do 
think one of the things that we have achieved through the 
shapefile process is a real balance. You know, we have talked a 
lot about a granularity, but there is another side, which is 
you can get so granular that you can create systems that are so 
complex that they are difficult to execute and update on a 
regular basis.
    So one of the reasons we focused on moving from census 
blocks to shapefiles is because we believe that protects 
competitively sensitive data, that it is achievable, and that 
it is extendable across the United States in a very rapid 
fashion and that we will get the most bang for our buck if we 
focus on that.
    Mr. Bilirakis. Very good. I appreciate that.
    Anybody want my time? All right, I will yield back.
    Oh, yes, please.
    Mr. Loebsack. Thank you, Mr. Bilirakis. Very quickly, if I 
may. As you know, Mr. Spellmeyer, our bill, the Latta-Loebsack 
bill, Loebsack-Latta, however we want to say it, has some 
specific parameters to change how mobile broadband internet 
access is documented. And can you explain how and why these 
prescribed parameters will improve the maps that we have now?
    Mr. Spellmeyer. Yes, Congressman. I do believe they will 
significantly improve the map. There are a number of additions 
specified by the legislation. The two most important ones 
relate to when we model these networks and how the signal 
propagates you have to make a choice about something called 
cell edge probability. What is the probability that that signal 
is actually going to get out to the cell edge? The FCC used 80 
percent. We don't think that is a commercially reasonable 
number. Taking it up to 90 is consistent with how we engineer 
our networks.
    The other big one was cell loading. The FCC said model 
network loaded at 30 percent. We don't think that is accurate 
and this one bumps it up to 50, much more balanced picture.
    Mr. Loebsack. All right, thank you.
    And thank you again, Mr. Bilirakis, for yielding. Thank 
you. I yield back.
    Mr. Doyle. The gentleman yields back. The Chair now 
recognizes Mr. Veasey for 5 minutes.
    Mr. Veasey. Thank you, Mr. Chair. You know, in urban 
America, which I represent, we have sort of two, you know, 
different issues. You know, you have like myself for instance, 
right, where I have one MVPD provider and then I have a 
different ISP because I don't necessarily get the highest speed 
in my area. So I have to have two different services so I can 
have the highest speed. And then, but there are still some 
services in urban America where there is no coverage.
    And so I want to maybe ask Ms. Floberg, you know, when they 
were, you know, looking into this issue, do you think that the 
shapefiles that have been proposed would also be able to 
accurately show where there are underserved areas in urban 
America that may still need coverage especially when you take 
into consideration that the $20.4 billion that was used for 
existing universal payout to ISPs to be able to provide 
coverage to rural areas were really, I think, specified just 
for rural America? And so do you have any thoughts on that at 
all?
    Ms. Floberg. Thank you for the question, Congressman. Yes, 
I think that the promise of greater granularity here is most 
relevant when we are talking about these larger rural census 
blocks, but is absolutely valuable and I think has the 
potential to help highlight where there might be particular 
neighborhoods in urban areas that are being overlooked when it 
comes to deploying faster and faster speeds. I think that that 
definitely can, the level of granularity promised could 
hopefully highlight some of those areas and help us figure out 
if there are cases where we have examples of digital redlining 
occurring.
    Mr. Veasey. Yes. And with the FCC's different proposals--
and I will be happy for anybody to answer this. With some of 
the other proposals that have been out there like, you know, 
digital opportunity data collection, crowdsourcing, sunsetting 
Form 477, is there something that should have also been 
included that wasn't a part of that initial FCC proposal that 
could really help people in underserved areas?
    Ms. Floberg. I can jump in on that again. I mean, I think 
that part of this again that we think is really important and 
this may not be for this bill and this day, but expanding our 
understanding of the digital divide and trying to expand that 
to understanding prices, trying to understand what kinds of 
prices consumers are actually being charged.
    Right now, this is something where the FCC currently 
collects virtually zero useful data in trying to gauge what 
those prices are nationwide, which makes it very hard to say 
where broadband might be affordable, where it is not, or even 
for policymakers to assess what kinds of interventions might be 
necessary.
    Mr. Veasey. Yes.
    Ms. Bloomfield. I would just add that I do think that we 
are in a really interesting sweet spot where with what you all 
are doing in the legislation that you have bipartisanly written 
through this committee and have discussed, aligned with what 
the FCC's current action is, is really all moving on the right 
track at the same time.
    So I think there is some really interesting momentum that 
we don't always see here in Washington, DC, to actually take 
care of the mapping issue, so I just applaud all of you for 
that and again the coordination with the FCC.
    Mr. Spalter. Congressman, we are literally on the precipice 
of being able to stick the landing on national bipartisan 
legislation coupled with the important work that our colleagues 
at the FCC are doing to advance the idea that we can have a 
National Broadband Map. And once we accomplish that goal, there 
will be innumerable ways to catalyze additional insight, 
analytics, reporting, and other elements that will speak to 
exactly the issue that you are driving, which is how can we 
better support all Americans in rural communities, exurban, 
suburban, and urban communities as well to realize the power 
and potential of broadband and make it more affordable.
    Mr. Veasey. And if I could just ask with the remainder of 
my time just one very, if very hypothetical question, so if a 
company were able to deploy low Earth orbit satellite to 
provide coverage in these gaps that we have talked about today, 
would current providers, would there still be the need on the 
ground from people represented here today and others to still 
sort of fill in these gaps?
    Mr. Spellmeyer. I would offer on behalf of the wireless 
industry that I am not certain that those lower orbit 
satellites are going to deliver a mobile product that will be 
sustainable, you know, inside an automobile at 70 miles an 
hour.
    Mr. Veasey. Interesting. OK.
    Mr. Spalter. Many of our companies at USTelecom are 
advancing creative ways of partnering with certain satellite 
communities to reach last-mile geographies to ensure that there 
could be potential service. But we actually have to be very, 
very careful that we are prioritizing spending Federal 
resources for broadband deployment that can actually be 
sustainable and can help rural communities achieve benefits of 
things like 5G and other next generation technologies through 
wireline technology access that is just not going to be 
available through platforms like satellite.
    Mr. Veasey. OK, thank you.
    Mr. Doyle. The gentleman's time has expired. The Chair 
recognizes Mr. Cardenas for 5 minutes.
    Mr. Cardenas. Thank you very much, Mr. Chair. I appreciate 
the opportunity to have this discussion before the public on 
this very important issue. And it is something that, 
unfortunately, the American public doesn't understand how 
important it is and how directly affected they are because 
everybody is somehow, someway, connected to one of these.
    And so I have a question. Ms. Bloomfield, why do you think 
a challenge process is necessary even if the maps are more 
granular?
    Ms. Bloomfield. So I think the granular maps is a really 
good start and I think the challenge process really allows us 
to make sure we have integrity in the program, again 
particularly when you are talking about either Federal support 
of someway, whether it is Universal Service or it is ReConnect 
through USDA or community connect programs, any of these 
programs, or when you are thinking about a policy change.
    So I think again it is that opportunity, and I don't want 
to repeat myself, but to do the sanity check, to be the 
validation process at the back end. So you have the process in 
the front end with the mapping and the standards and all of 
those pieces; it is the ability to do the validation on the 
back end to make sure that the information you have is what you 
were told you had.
    Mr. Cardenas. OK. Also, Ms. Bloomfield, when mapping 
broadband why is it important to consider latency and usage 
limits? Isn't tracking speed enough?
    Ms. Bloomfield. So I think again we go back to what is the 
consumer, you know, what are they going through. We know, you 
know, I represent small community-based telecommunication 
providers. You know, the number of folks that have actually 
have poor service a lot of times is because they bought the 
router on eBay.
    So there are a lot of different things that we need to be 
looking at, but, really, when you are thinking about 
particularly as we move forward and particularly as the 
Internet of Things becomes a more, a bigger part of our life 
and our economy, we need to make sure that folks are getting 
service that is in real time and that they are not stymied by 
usage caps that might impact the affordability of the product 
that they are receiving.
    Mr. Cardenas. OK, thank you.
    And then also to Mr. Assey, we agree we want to create 
these maps as soon as possible. How do you imagine the agencies 
will coordinate to get this done?
    Mr. Assey. Well, we have taken a giant step in August with 
the adoption of the order directing providers to move to 
shapefile reporting. I think we are working with USAC and 
waiting on guidance for some of the standards that are going to 
be required for that. But I think we are well on our way.
    Mr. Cardenas. OK, and the coordination, is that healthy?
    Mr. Assey. It is absolutely essential and it is one of the 
things that we are very gratified that the committee is 
considering putting its mark in and encouraging that type of 
coordination. I do think that the best thing that will 
encourage that coordination is actually the success of getting 
a better map, because then agencies will be incented to want to 
use that map and for everyone to be singing off the same sheet 
of music.
    Mr. Cardenas. OK, better map. Who wins if we don't have 
better mapping?
    Mr. Spalter. Certainly not rural America, certainly not the 
many, many hundreds of thousands enterprises and individuals 
and families and communities that still are in unserved 
communities that are considered to be served. Certainly not the 
public treasury, our fiduciary duty to use funds that are 
available through our taxpayers to their best and highest 
purpose.
    If we are not doing the right work on getting our maps 
right at the front end, I will assure you, through the Rural 
Digital Opportunity Fund or any other future broadband support 
program, if we do not have this granular location fabric to 
start we will be misapplying public funds and that would be a 
shame.
    Mr. Cardenas. Does this have a positive effect when it 
comes to public safety, health care, things of that nature, 
because now this is being integrated in every walk of life. It 
is not just out of convenience, you know, for convenience 
tools, you know, talking on the phone with your friend or what 
have you. We are talking about this is, you know, directly 
affecting people's ability to respond in emergency situations, 
et cetera, correct?
    Mr. Spalter. The growth of one of the most epidemic medical 
chronic conditions in America is diabetes and, unfortunately, 
many of those who are suffering from that condition live in 
remote, rural communities. If we are denying the ability to 
make sure we are pinpointing accurately, the resources that we 
need to get to those communities through, inspired by the 
legislation that is before us, we will be not serving not only 
broadband but not serving the health of Americans.
    Mr. Cardenas. Mr. Chairman, if I can just have a few 
seconds to take a point of personal privilege to thank my 
colleagues who are continuing to focus on these issues and 
introducing these bills. And for us to have this dialogue and 
debate about what the proper paths going forward, even though 
that on many occasions many of our talented staff are stolen to 
the private industry, we are still capable and we are still 
getting the job done. Thank you very much, Mr. Chairman.
    Mr. Doyle. I thank the gentleman. The Chair now recognizes 
Ms. Rodgers for 5 minutes.
    Mrs. Rodgers. Thank you, Mr. Chairman, and I appreciate you 
allowing me to waive on to the committee today and join you all 
in this important discussion.
    As technology becomes increasingly integrated into every 
aspect of our lives, our economy, our society, it is more 
important than ever to ensure that all Americans, especially 
those in the rural areas, have access to high-speed and an 
internet connection. Coming from Eastern Washington, living in 
Eastern Washington, now representing Eastern Washington in 
Congress, in too many of the areas that I drive when getting 
around the district and visiting the various communities, 
coverages remain static. I was reminded of it earlier this 
year. I was in a couple of communities just south of Spokane. 
Spokane is the second-largest city in Washington State and I 
was just 15, 20 miles south of Spokane in Rockford and 
Fairfield and they had nothing.
    So there is a growing and growing drumbeat that, you know, 
we--this needs to be a priority and I join in that. Because 
whether it is economic development, whether it is health care, 
telehealth, so much of the future of health care is around 
telehealth, education, our kids are doing more and more 
homework online and personalized education, you know, or health 
care, it is our future.
    So I, in August I hosted a couple of roundtable discussions 
in Eastern Washington, one in Colville, which is more north of 
Spokane, 70 miles north, and then one in Pomeroy that is even 
further south, and it was good. It was good to bring the 
community together, the elected officials, the ISPs, others, 
business owners, healthcare providers that are involved in 
trying to solve this issue in Eastern Washington. One of the 
main barriers that seems to be common right now is ensuring 
that we have the accurate maps and that this is so important as 
we have this discussion about how are we going to ensure that 
every area is covered.
    Earlier this year, I joined with Mr. O'Halleran in 
introducing the Broadband Data Improvement Act and it is one of 
several bipartisan bills that we are considering here today. 
And this bill tackles the inaccurate mapping on several fronts. 
One, by increasing the granularity of provider-reported data 
using shapefiles; two, by utilizing a three-pronged validation 
process including the use of third-party data and an on-the-
ground accuracy verification; and third, ensuring a robust 
challenge process. Those are the three main areas. It also 
provides assistance to smaller providers to minimize the burden 
of the reporting requirements.
    And I just want to thank all of the witnesses today for 
being here today and for your work to improve broadband access 
for all Americans. I am encouraged by the variety and the 
priority that this committee is making to move forward in a 
bipartisan way so that we can ensure that the limited Federal 
funds that we do have, but that we have been prioritizing for 
this effort, reach the areas where the need is the most.
    I wanted to ask if you could talk just a little bit more 
about the importance of having a robust validation and 
challenge process to ensure the accuracy of our broadband maps 
in addition to increasing granularity. And, specifically, what 
role should third-party data play in this process?
    And, Ms. Bloomfield, I wanted to ask you that and then open 
it up.
    Ms. Bloomfield. So, first of all, thank you so much for 
your leadership. It has been very key. And as you listed the 
key points in your legislation, they are all things that we 
absolutely endorse and support and think are important.
    So when you talk about validation, you know, there are a 
lot of different ways to do it. You know, one of the things we 
have all talked about as a panel is how do you incorporate 
things like crowdsourcing, how do you actually gather that 
information from people served on the ground. I think that is a 
really interesting and intriguing idea. I would just say though 
that again, what you don't want to do is create a process that 
becomes really a burden where somebody has to chase down every 
complaint and respond.
    And, you know, how do we actually capture trends so that we 
don't get bogged down in that process and we can continue to 
move forward to make sure that the maps are accurate and people 
can continue to spend more of their time and energy actually 
building the broadband then reporting back through that 
process. So I think it is important, but I think it has to be 
done very thoughtfully.
    But again, I think that along with the challenge process so 
at the back end you can actually really do that verification 
and it is going to be very significant.
    Mrs. Rodgers. Anyone else?
    Mr. Spellmeyer. I would add, so I think a challenge process 
is vital. You know, the FCC did a one-time data collection and 
if we hadn't had a challenge process there, those maps that 
show all of Eastern Washington as covered would have been 
locked into place and used by the FCC. You know, on the 
wireless side we used shapefiles to build that last map, but 
without a challenge process to go out and test it we would have 
been stuck in a real mess.
    So the good news is that, you know, all of the legislation 
in front of us puts us in the right direction to fix it once 
and for all.
    Mrs. Rodgers. Great. Thank you all. I yield back.
    Mr. Doyle. OK, our time has expired. I thank the 
gentlelady. The Chair requests unanimous consent to enter the 
following documents into the record: a letter from the Western 
Governors Association, a letter from the National Rural 
Electric Cooperative Association and NTCA-The Rural Broadband 
Association. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Doyle. Let me thank all the witnesses for their 
participation in today's hearing. You have been a most 
excellent panel and we have enjoyed hearing from you.
    I want to remind all Members that, pursuant to the 
committee rules, they have 10 business days to submit 
additional questions for the record to be answered by the 
witnesses who have appeared, and I ask each witness to respond 
promptly to any such questions that you may receive.
    At this time, the subcommittee is adjourned.
    [Whereupon, at 1:27 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
